<html>
<title> - SAVING LIVES ON OUR NATION'S HIGHWAYS</title>
<body><pre>[Senate Hearing 110-1256]
[From the U.S. Government Publishing Office]



 
                                                       S. Hrg. 110-1256

                 SAVING LIVES ON OUR NATION'S HIGHWAYS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 17, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________
                               
                               
                               U.S. GOVERNMENT PUBLISHING OFFICE
88-901 PDF                         WASHINGTON : 2015                               
                               
_______________________________________________________________________________________                              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8aedfae5cae9fff9fee2efe6faa4e9e5e7a4">[email&#160;protected]</a>  
                        
                        
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 17, 2008
                           OPENING STATEMENTS

Lautenberg, Hon. Frank, U.S. Senator from the State of New Jersey     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Bond, Hon. Christopher, U.S. Senator from the State of Missouri..   102
Baucus, Hon. Max, U.S. Senator from the State of Montana.........   103

                               WITNESSES

Paniati, Jeffrey F., Executive Director, Federal Highway 
  Administration.................................................     3
    Prepared statement...........................................     6
    Responses to additional questions from:
        Senator Boxer............................................    13
        Senator Klobucher........................................    16
        Senator Inhofe...........................................    17
Siggerud, Katherine A., Managing Director, Physical 
  Infrastructure Issues..........................................    19
    Prepared statement...........................................    22
    Responses to additional questions from:
        Senator Boxer............................................    39
        Senator Inhofe...........................................    42
Martinovich, Susan, P.E. Director, Nevada Department of 
  Transportation.................................................    47
    Prepared statement...........................................    50
    Responses to additional questions from:
        Senator Boxer............................................    59
        Senator Klobucher........................................    61
        Senator Inhofe...........................................    62
Gillan, Jacqueline S., Vice President, Advocates For Highway And 
  Auto Safety....................................................    65
    Prepared statement...........................................    67
    Responses to additional questions from Senator Boxer.........    81
Johns, Robert C., Director, Center For Transportation Studies....    84
    Prepared statement...........................................    87
    Responses to additional questions from Senator Boxer.........    94
    Response to an additional question from Senator Inhofe.......    95


                 SAVING LIVES ON OUR NATION'S HIGHWAYS

                              ----------                              


                        THURSDAY, JULY 17, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10:03 a.m. 
in room 406, Dirksen Senate Office Building, Hon. Frank 
Lautenberg presiding.
    Present: Senators Lautenberg, Inhofe.

          OPENING STATEMENT OF HON. FRANK LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Good morning, everyone. We will call 
this hearing of the Environment Committee to order.
    Welcome, everyone, to today's hearing on highway safety. In 
2001, when President Bush took office, more than 40,000 
Americans died on our roads. Eight years later, more than 
40,000 Americans are still dying on America's roads each year. 
Highway crashes continue to be a leading cause of death in our 
Country. And these aren't just numbers, they are fathers, 
mothers, brothers, sisters, children, you name it. Families 
torn apart, parents stolen from their family by crashes, 
children whose futures are stolen from them.
    The fact that we have failed to reduce crashes and deaths 
on our highways is frankly, a failure of leadership. There have 
been opportunities for the Administration to strengthen the 
frames of cars and trucks to protect those inside during an 
accident, and limiting the hours that truck drivers can be 
behind the wheel to reduce fatigue. But these opportunities for 
safety have not been acted upon.
    Some of America's most successful actions to improve 
highway safety have come when the Federal Government leads the 
way, encourages the States to act. That is what we did by 
enacting a law that induced States to set a minimum drinking 
age of 21. Today is the 24th anniversary of this law, a 
thousand lives saved each and every year, have been saved 
because of that. And I was proud to be the author of that 
legislation.
    And that is what the Government did also when it passed a 
law to set the maximum blood alcohol content levels at .08. I 
was proud to author that law as well. And just last month, the 
President signed legislation that required ignition interlocks 
on the cars or trucks of repeated drunk drivers. These devices 
will not let a vehicle start if the driver's blood alcohol 
content is too high. These actions focus on the drivers because 
fatal crashes are all too often caused by driver error.
    But we also have to make sure that our vehicles, our cars 
and trucks, are as safe as they can be, our roads and bridges 
are structurally sound and inspected regularly. As we saw last 
year in Minnesota with the bridge collapse, there is no 
question that we need to upgrade and repair our infrastructure. 
More than 25 percent of our Nation's bridges are deficient. 
State bridge safety inspection programs must be adequate to 
find the problems and to fix them.
    Second, to make a real difference in reducing highway 
deaths, we have to increase seat belt usage. Twenty-six States 
and the District of Columbia have primary seat belt laws. These 
laws work. We also need to decrease the number of distracted 
driving incidents. We all see it, telephones, lots of States 
now have laws against using a hand phone when driving. But I 
have seen it, and I am sure that many of you or all of you have 
also seen it, reading behind the wheel, pet on lap, children on 
laps, bad for the child, certainly terrible for the family. So 
we have to work to decrease these distractions.
    Even the wonderful device like GPS can be distracting if 
that particular model car has a GPS that you can adjust while 
driving. Many of them you can't make changes with. But that 
doesn't mean people don't try.
    And finally, the safety of large trucks. By the way, the 
motorcycle helmet law, which I wrote some years ago, 
substantially reduced the head and neck injuries. I was taken 
on by the U.S. Senate some years later, because it was felt to 
be an infraction of right. But what right did we have to ignore 
the fact that this is a very serious cause, being helmet-less 
is a serious cause for death and injury.
    And finally, the safety of large trucks and buses cannot be 
ignored by Federal and State safety regulators. Each year, 
5,000 people die in large truck crashes. It is unacceptable. 
This Committee is going to take the lead in passing the next 
highway bill. And I look forward to helping craft that 
important piece of legislation, that important bill. And I will 
do my part to make up for the 8 years of neglected 
opportunities.
    With that, I welcome my colleague, Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman.
    Let me just do this. I agree with most of what you are 
saying in this hearing, and it is quite unusual, but we do seem 
to agree on many of these things.
    Senator Lautenberg. Well, we like each other, that is an 
overpowering thing.
    [Laughter.]
    Senator Inhofe. We are getting ready to, as we embark on 
our 2009 bill, the HSIP is something that needs to be improved 
upon and something we are concerned with. I have a rather 
lengthy statement, I would like to make it a part of the record 
and go right to our witnesses.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    One of the most important aspects of SAFETEA was the 
creation of a new core Safety program, called the Highway 
Safety Improvement Program or HSIP (READ: H-sip). Frequently 
when discussing transportation issues, much of the focus is on 
problems with funding, congestion and the physical State of our 
infrastructure; but sufficient attention must be paid to 
ensuring our nation's roads are as safe as possible. Injuries 
and fatalities on our nation's roads place enormous economic 
and non-economic costs on our society. We can do better. As we 
work to increase the performance of our transportation network, 
we must also continue to make safety our priority.
    Following enactment of SAFETEA, I asked GAO to conduct 
reviews of many aspects of the highway program. HSIP was one of 
the areas they have been looking into for me. The HSIP work 
will not be published until September, but they will be able to 
give us their main findings today.
    The most important part of HSIP is the strategic highway 
safety plan, where States create a data driven plan to address 
their most pressing safety problems. Anything on this plan is 
eligible for Federal HSIP funding. I really like this approach. 
Let the states determine their greatest needs and determine how 
funds can be best spent.
    These strategic plans are one of the primary areas I asked 
GAO to focus their efforts to ensure the program was operating 
as we hoped and planned. Early reports are fairly positive, but 
as always, there is room for improvements, especially on the 
data front. I hope all of today's witnesses can give us their 
thoughts on this issue.
    Recently I was made aware of a growing concern by State 
Departments of Transportation regarding the ability to use 
proprietary products in Federal-Aid projects. I am continually 
amazed at how quickly technology changes and how what may have 
been ``state-of-the-art'' is quickly overshadowed by new and 
innovative products. We want our States to have the ability to 
use the product best suited for the job, but at the same time 
we need to make sure that scarce taxpayer dollars are used 
wisely. Thus, the Federal Highway Administration has 
regulations requiring open and competitive bidding for vendors 
doing work or providing materials for Federal-Aid projects. I 
support that process, but would like to hear from our witnesses 
whether or not the existing regulations need to be examined to 
make sure that they are not inhibiting States from choosing the 
right product for the job.
    One of our witnesses will discuss performance measures. 
Currently, the highway program provides states over $40 billion 
a year. This money comes with far too many bureaucratic strings 
attached. That said, an important area is currently ignored: 
what are we getting for our money after the project is 
constructed. How states choose to spend limited State and 
Federal resources obviously has an enormous impact on the 
performance of the system. Performance measures can focus on 
individual aspects of the system such as congestion, the 
physical condition of roads or bridges, or safety. I am 
interested to see if HSIP is an area where performance measures 
can play a role. The use of performance measures is complicated 
otherwise they would already be more widely used.
    This hearing is being held as we prepare to write the next 
highway bill; so I'm looking forward to hearing concrete 
suggestions from our witnesses on how to improve the current 
HSIP program. This is a critical program and I know that 
everybody wants to make the improvements necessary to help make 
our nation's roads safer.

    Senator Lautenberg. Without objection, a good idea, and I 
appreciate it.
    Mr. Paniati, we welcome you and invite you to give your 
testimony. Please try to keep within the 5-minute limit. We are 
tolerant, but that may be a minute.
    [Laughter.]

 STATEMENT OF JEFFREY F. PANIATI, EXECUTIVE DIRECTOR, FEDERAL 
                     HIGHWAY ADMINISTRATION

    Mr. Paniati. Senator Lautenberg, Senator Inhofe, thank you 
for the opportunity to discuss the Federal Highway 
Administration's efforts to reduce the number of crashes, 
injuries and fatalities on our Nation's highways.
    In 2006, the number of people who lost their lives on the 
Nation's roadways fell by 868 deaths from 2005. This translates 
to a fatality rate of 1.41 per 100 million vehicle miles 
traveled, the lowest rate ever recorded. The number of 
fatalities in 2006 represents the largest drop in total deaths 
in 15 years.
    Despite the gains we have made in improving highway safety, 
over 42,000 people lost their lives in motor vehicle crashes in 
2006. These numbers are clearly unacceptable. That is why DOT 
considers safety its top priority and remains committed to the 
goal of reducing highway fatalities to a rate of 1.0 per 100 
million vehicle miles traveled by 2011.
    As you well know, improving highway safety requires a 
multi-agency and multi-disciplinary effort. While the National 
Highway Traffic Safety Administration and the Federal Motor 
Carrier Safety Administration focus on vehicle and behavioral 
safety, FHWA concentrates primarily in infrastructure, 
including the safety of roadway design, safe operation of the 
highway system and elimination of roadway hazards. We are also 
working to advance high quality safety data collection and 
analysis. We use a data-driven approach to target four areas 
that offer the highest returns from infrastructure-based 
solutions: roadway departure, intersections, pedestrian-related 
crashes and speeding.
    Since SAFETEA-LU was enacted, FHWA has worked aggressively 
to make authorized funds available and to issue guidance and 
regulations as necessary to carry out the authorized programs. 
Through the Highway Safety Improvement Program, SAFETEA-LU more 
than doubled the amount of highway safety funding for States 
and emphasized a data-driven strategic approach to improving 
highway safety. The program provides States with the 
flexibility to use funds for safety projects on all public 
roads and publicly owned pedestrian and bicycle paths and to 
effectively implement State Strategic Highway Safety Plans.
    FHWA assisted States in developing their plans, and we are 
happy to report that every State now has a strategic plan in 
place. We have witnessed the impacts of taking a strategic and 
comprehensive approach to highway safety. Thirty-two States 
identified data and data system improvements as a priority in 
their plans, and in 2007, 40 States used highway safety 
improvement funds for data improvements.
    In addition, we have seen increased stakeholder 
collaboration in the States and a greater focus on allocating 
resources to address the highest priority safety needs.
    FHWA continues to assist States with their safety planning, 
so that safety funds will be used where they yield the greatest 
safety benefits. A priority for FHWA is safety on rural roads. 
Rural two-lane road fatality rates are significantly higher 
than fatality rates on the InterState. The High-Risk Rural Road 
portion of the Highway Safety Improvement Program sets aside 
$90 million each year to address safety and develop counter-
measures to reduce these fatalities.
    Earlier this year, Secretary of Transportation Mary Peters 
announced a new national strategy to concentrate resources and 
technology on reducing deaths on the Nation's rural roads. The 
Rural Safety Initiative, led by Deputy Secretary Thomas 
Barrett, is a comprehensive effort among several agencies 
within DOT that will help States and communities develop 
strategies to eliminate the risks that drivers face on rural 
roads. The Rural Safety Innovation Program, a component of the 
Rural Safety Initiative, is offering $15 million to rural 
communities across the country to apply and evaluate innovative 
safety solutions.
    Highway fatalities are a national tragedy, and FHWA is 
committed to reducing their numbers. Using the tools SAFETEA-LU 
provided, and working together with the highway safety 
community, we are making progress and seeing results. As we 
approach reauthorization, we look forward to continued work 
with this Committee, the States and our transportation safety 
partners to save lives on our highways and achieve the 
Department's safety goal. We hope to buildupon the strong 
framework that was established in the last reauthorization with 
a continued focus on improving data collection and analysis and 
providing States maximum flexibility to target their greatest 
safety needs.
    I thank you for the opportunity to appear before you today, 
and I will be happy to answer any questions you may have.
    [The prepared statement of Mr. Paniati follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
        Responses by Jeffrey F. Paniati to Additional Questions 
                           from Senator Boxer

    Question 1. Do you think that lower speed limits would make 
the roads safer? Do you think a national speed limit would be 
effective?
    Response. The effects of speed limits on speeds, crashes, 
and casualties have been studied extensively over the past 30 
years. In 1974 the 55 mph National Maximum Speed Limit (NMSL) 
was enacted to conserve fuel. Travel decreased, speeds 
decreased on roads where the speed limit was lowered to 55 mph, 
and total traffic fatalities deceased by 9,100 from 1973. The 
slower and more uniform speeds due to the 55 mph limit are 
judged to have saved between 3,000 and 5,000 lives in 1974 
(TRB, 1984). As fuel became plentiful again, travel increased 
and compliance with the 55 mph limit decreased markedly (TRB, 
1984). In 1987 Congress allowed States to raise speed limits to 
65 mph on rural interState highways. States that raised their 
limits generally saw increases of about 4 mph in average speeds 
and 85th percentile speeds and statistically significant 
increases in traffic fatalities on these roads (TRB, 1998). A 
NHTSA study conducted in 1989 to assess the effect of the 
increase in NMSL estimated that fatal crashes increased by 22 
percent in States that increased the speed limit, accounting 
for approximately 300 more fatalities each year (the same study 
also showed that States retaining their speed limit at 55 mph 
experienced a fatal crash increase on rural interstates of 10.4 
percent). In 1995, Congress repealed the NMSL and returned full 
authority to set speed limits back to the States. Again, 
increased speed limits produced modest increases in both 
average and 85th percentile speeds and increases in traffic 
fatalities (TRB, 1998).
    Although lower speed levels would reduce the severity of 
crashes, we do not believe that re-implementing a national 
speed limit would be an overall wise policy decision. 
Imposition of a national speed limit would impose a costly 
burden on the States, due to the disproportionate efforts 
needed to effectively enforce such a limit. Arbitrarily lower 
speed limits are viewed by drivers as unreasonable and often 
ignored. Arbitrarily lower speed limits strain relationships 
between the public and law enforcement personnel, and the 
States and Federal transportation agencies. The setting and 
enforcement of rational speed limits would be more effective in 
improving highway safety. Rational speed limits are determined 
by roadway geometry, traffic and pedestrian volume and 
characteristics, roadside development, etc., without the 
imposition of arbitrary speed limits. To be most effective, 
States should retain their authority to set speed limits. They 
have the best knowledge of their roadway conditions and will be 
relied on to enforce speed limits.
    The Department has a comprehensive approach in place to 
reduce speed-related fatalities, injuries, and crashes, and the 
Secretary approved the Speed Management Strategic Initiative in 
June 2005. The initiative was developed jointly by Federal 
Highway Administration, the National Highway Traffic Safety 
Administration, and the Federal Motor Carrier Safety 
Administration. It is pursuing strategies and key actions to 
better define the relationship between speed and safety, 
promote engineering measures to manage speed, and increase 
awareness of the dangers of speeding. The strategies also 
include promotion of effective speed enforcement activities and 
building stakeholder cooperation and support. Based on 
scientific research, strategies include engineering, 
enforcement and education elements.

    Question 2. What is the most important thing that can be 
done to improve road safety? Is there a Federal element to 
that, or is it purely State or local?
    Response. When a crash occurs, it is generally the result 
of numerous contributing factors. Combinations of driver, 
roadway, and vehicle factors all have an impact on road safety. 
Likewise, combinations of programs and strategies at the 
Federal, State, and local level are needed to address this 
national crisis. Unfortunately, there is not just ``one'' most 
important thing--improving safety requires a comprehensive 
approach.
    SAFETEA-LU has pointed the way to making a real difference 
in highway safety. The Highway Safety Improvement Program's 
(HSIP) data-driven, cooperative approaches are encouraging the 
critical partnerships, collaboration, and leveraging of 
resources and investments by the States across all 4 ``Es'' of 
safety (Engineering, Education, Enforcement, and Emergency 
Medical Services). The HSIP fosters more effective approaches 
as State and local agencies choose the best countermeasures or 
investments to solve their highest priority safety problems.
    To make the most effective safety investments, we need to 
ensure that all safety decisions are based on quality data and 
that the necessary data and analysis tools are available. Also, 
it is important to view safety as an integral part of 
transportation decisionmaking to ensure that safety elements 
are fully incorporated into all Federal-aid projects. We also 
need to address the safety problems of rural roads where almost 
60 percent of fatalities occur. Improving safety on the vast 
local and rural road network will require system-wide 
applications of low-cost safety improvements.
    To improve road safety, the Federal level has a definite 
role to play in partnership with States and local 
transportation practitioners. We proactively provide technical 
assistance and support to encourage improvements in State and 
local safety data and implementation of safety improvements on 
all public roads. To be successful, these Federal strategies 
must be carried out in cooperation with State and local 
partners. State and local practitioners have the most critical 
role to play in implementing the policies, regulations, 
countermeasures, and decisions that advance and improve safety.

    Question 3. You have highlighted in your testimony the 
USDOT's rural safety initiative. How does that differ from the 
programs that are already in place? What new funds are being 
drawn upon? Am I correct to observe that the main thrust of 
this program is only to create a ``bully pulpit''? Are there 
any other programs being developed at USDOT?
    Response. The Rural Safety Initiative is different from 
current safety programs because it not only taps over $200 
million in existing rural safety funds, it has also provided 
ITS program funds and Delta region transportation development 
program funds for State and local communities to improve safety 
on rural roads through grants made available by the Rural 
Safety Innovation Program (RSIP). These RSIP grants are 
designed to help States and communities develop ways to 
eliminate the risks drivers face on America's rural roads and 
highlight available solutions and resources. On August 27, the 
Department announced that 14 States, three counties and two 
parishes were awarded $14.7 million to implement projects to 
reduce crashes on dangerous rural roads. Selected projects 
included installation of dynamic curve warning systems, 
intersection safety using ITS, speed management and 
information, and low-cost road departure crash countermeasures.
    In addition, NHTSA is conducting two new demonstration 
programs to identify model strategies for increased seat belt 
use and decreasing impaired driving in rural areas.
    The program does include a ``bully pulpit'' function that 
is effective because it brings more attention to the needs of 
rural roads. About 79 percent of rural roads are off the State 
systems where safety infrastructure and design have been most 
neglected. A greater emphasis is placed on technical assistance 
through safety circuit riders and non-traditional partners who 
help local governments identify problems and implement low-cost 
safety improvements.
    In response to the third part of your question, FHWA is 
evaluating the HSIP and the High Risk Rural Roads (HRRR) 
program to identify possible improvements for reauthorization. 
In particular two areas are being explored: (1) we are 
considering options that help ensure that HSIP funds are used 
or made available by States for safety improvements on non-
State owned roads; and (2) we are also considering ways to make 
it easier for State and local partners to participate in the 
HRRR program.

    Question 4. Do you believe that the Highway Safety 
Improvement Program is living up to its potential? How are you 
going to deal with the shortcomings that GAO has described?
    Response. We are confident the new Highway Safety 
Improvement Program is on sound footing. We have seen a 
significant drop in highway fatalities and the fatality rate in 
2007, and we believe that HSIP policies and funding have 
contributed to this improvement, even though we also believe 
that greater gains will be achieved as the program fully 
matures and delivery processes are optimized. Significant 
progress has been made since enactment of SAFETEA-LU. All 50 
States and the District of Columbia developed and are currently 
implementing Strategic Highway Safety Plans (SHSP) that include 
goals and strategies relevant to each State's distinct highway 
safety emphasis areas. To date, $4.4 billion has been made 
available to the States, which is a cumulative total 
representing HSIP apportionments and additional funds from the 
Equity Bonus program, which totaled $301,861,654 in fiscal year 
8. This amount also includes a carryover of some HSIP funds 
from fiscal year and fiscal year 7.
    The GAO pointed out several shortcomings that we are 
addressing to improve the effectiveness of the HSIP. The 
States' lack of safety data to carry out data-driven 
decisionmaking is a major concern. We have made States aware 
that funding for data improvements is available through the 
HSIP, NHTSA's State Traffic Safety Information System 
Improvements program, and other sources. By asking States to 
report annually on their plans and timetables for achieving 
full public road coverage for their fatality and serious injury 
data, we have encouraged them to improve these critical 
systems. The States demonstrated an increased awareness of the 
importance of good safety data in 2007. Forty States used HSIP 
funds for data improvements and 32 listed data and data system 
improvements as priorities in their SHSPs.
    GAO questioned the lack of a date-certain for State 
completion of roadway inventories in FHWA guidance documents. 
We have not required a specific date for completion of roadway 
inventories because we are developing a list of roadway data 
elements that will serve as a guideline to help standardize 
State reporting of roadway data. Better safety data including 
roadway inventory data are essential to good safety investments 
and identified as a high priority for safety reauthorization.
    GAO also called for developing HSIP project selection 
guidelines for States. To provide guidance, we are currently 
revising Part 924 of title 23, Code of Federal Regulations 
(CFR), the Highway Safety Improvement Program. The regulation 
incorporates the new features and requirements of section 148 
of SAFETEA-LU. It provides detailed information on program 
structure, planning, implementation, evaluation and reporting 
that will give the States a good basis for making effective 
project selections. We are also updating the Highway Safety 
Improvement Program User Manual and workshop. Three pilot 
workshops will be held in fiscal year 9.
    GAO points out that the certifications required for State 
use of the 10 percent flexibility provision have been a 
barrier. Liability concerns have played a major role. We may 
also have to assess the impact of the certification required 
for the use of the rail flexibility provision in the recently 
passed Technical Corrections Act. We are considering ways to 
reduce these barriers and enhance State flexibility in reform 
of the surface transportation program. GAO also points out the 
disparity between the $220 million set-aside for rail grade 
crossing safety and its low priority among the States. This is 
another example of the lack of flexibility for States to 
address their highest priority problems that could be addressed 
in program reform. GAO's comment that it is difficult for 
States to identify qualifying roads for the HRRR program is on 
target. We are considering ways to make it easier for States to 
participate in this program as part of reform legislation.
    Though the HSIP has not yet reached its full potential, we 
are confident that significant progress is being made and will 
continue. The National Safety Council reports steady decreases 
in fatalities of 2 percent from 2005-2006, 3 percent from 2006-
2007, and projects a 9 percent decrease from 2007-2008. 
Although these percentages are small, they indicate 
approximately 6000 lives will be saved from 2005--2008.

    Question 5. An Associated Press report cited a University 
of Alabama study that says reduced driving due to increased gas 
prices could reduce auto deaths. Do you agree? Is this a 
``silver lining'' to high gas prices?
    Response. Yes, essentially less exposure will lead to less 
risk. A reduction in highway fatalities is truly a remarkable 
benefit to the Nation. In addition, inevitably there are other 
benefits to be realized in reducing fatalities, namely, a 
reduction in the estimated $230 billion per year cost of 
highway crashes to the American public.

    Question 6. What about large trucks in the traffic stream. 
As freight continues to increase, more large trucks are 
necessary to move goods to their final destinations. What are 
you doing to see that they are accommodated safely? What should 
the Federal role be in assuring safe goods movement? Should 
truck corridors be part of the answer?
    Response. The Department, through the Federal Motor Carrier 
Safety Administration (FMCSA), has programs to ensure that 
commercial vehicles operating on our highways do so safely. In 
fact, in 2007, the number of people killed in crashes involving 
large trucks-- trucks with a gross vehicle or gross combination 
weight rating of over 10,000 pounds--was the lowest since 1992, 
and a 4.4 percent decrease from 2006. Fatalities in large truck 
crashes have now dropped for 3 years in a row, from 5,240 in 
2005 to 4,808 in 2007, a total decline of 8.2 percent.
    These improvements in commercial vehicle safety are due in 
great part to a successful partnership between FMCSA and the 
States. FMCSA promulgates safety regulations and, together with 
the States operating under Motor Carrier Safety Assistance 
Program grants, enforces those regulations through traffic 
enforcement, roadside inspections, safety audits, and 
compliance reviews.
    In addition, FMCSA coordinates with NHTSA (the National 
Highway Traffic Safety Administration), on commercial vehicle 
safety research and technology development, and outreach 
programs. Major heavy vehicle research topics for fiscal year 
include: continued research on truck-tractor stability control 
systems; vision enhancement systems to eliminate truck blind 
spots; and crash prevention and mitigation systems, including 
initiating research to estimate the safety benefits of 
automatic braking systems for heavy trucks. Collectively, these 
systems may help reduce a variety of crash types including 
rollovers, road departures, jackknifes, rear end collisions, 
and lane change/merge collisions. Research is needed to 
understand the capabilities, limitations, and reliability of 
these technologies.
    While the research initiatives and partnering described 
above are making progress in improving commercial vehicle 
safety, given the projected freight increases, the Department 
does believe that truck corridors may provide an opportunity to 
realize greater safety and efficiency in the movement of 
freight in our country. Truck corridors could be part of a 
multimodal approach to more efficient goods movement. There are 
a number of parameters that could be evaluated when looking at 
highway system data/performance (e.g., the Annual Average Daily 
Truck Travel (AADTT), the percentage of trucks in the AADT, 
level of service on a facility). When certain thresholds are 
reached (e.g., AADTT > 10,000, the percentage of trucks in the 
AADT > 25 percent, the level of service on the facility is 
worse than D), an evaluation of multimodal transportation 
options, including rail, water, and highway (truck corridors) 
would be appropriate. The types of commodities moved by truck 
and the length of those trips, travel time reliability, 
emissions, energy consumption, public benefit, and changing 
commercial motor vehicle size and weight requirements on a 
dedicated corridor, would be some of the factors to be 
considered. For example, the I-70 Corridor of the Future effort 
is using a $3 million Transportation, Community, and System 
Preservation program grant to conduct a study of the potential 
for dedicated truck lanes in the I-70 corridor across the four 
States of Ohio, Indiana, Illinois, and Missouri to improve 
goods movement through that corridor.

    Question 7. Is the InterState safer than other roads? Why?
    Response. Yes, the InterState system is safer than other 
roads.
    While the InterState system carries 24 percent of vehicle 
travel, only 12 percent of the fatal accidents occur on this 
system. The reason for this is that the InterState system is 
required to adhere to a higher level of geometric design 
standards. This system facilitates higher volumes of traffic in 
a safe and efficient manner. Some of the features of the 
InterState system that contribute to it being safer are:
     Separation of directional traffic
     Lack of at-grade intersections
     Wide and/or protected medians
     Lack of pedestrians
     Zones clear of roadside obstacles
     Wide traffic lanes
     Paved shoulders
     Higher design speeds, with longer sight distances

        Responses by Jeffrey F. Paniati to Additional Questions 
                         from Senator Klobuchar

    Question 1. There is a Federal Highway Administration 
regulation that generally prohibs--with some exception--the use 
of patented or proprietary products on Federal-aid projects. 
I'm told that several organizations have adopted policy 
statements encouraging modifications to the regulation. A joint 
committee of AASHTO, the Associated General Contractors, and 
the American Road & Transportation Builders Association, for 
instance, has urged that the regulation be modified'' . . . to 
permit greater flexibility in use of proprietary products that 
are beneficial to the public interest, especially those that 
can provide safety benefits to the public.''
    Is it possible that highway safety has been compromised in 
some instances when states were prevented from using new safety 
products because they were patented or proprietary?
    Response. FHWA's policy does not prohibit the use of 
patented or proprietary products or processes. It encourages 
competition in the specification and selection of materials, 
and as a result, it promotes innovation in the design, 
manufacturing, installation and performance of highway 
materials. We are not aware of any instances where highway 
safety has been compromised due to this policy.

    Question 2. If there is a close call whether the potential 
safety benefits of a new product outweigh the public interest 
in having multiple suppliers and multiple bids, which public 
interest should take precedence: safety or multiple suppliers?
    Response. Contracting agencies and the FHWA have a 
responsibility to fully consider both safety benefits and life-
cycle-costs in the selection and specification of materials. 
Safety benefits and economic factors must be considered and 
documented in any public interest finding that shows that there 
is no equally suitable alternate to a given product. This 
documentation process leads to greater transparency in the 
product selection process and a more competitive contracting 
environment that provides multiple benefits for the traveling 
public. I can assure you that, as part of this process, FHWA 
fully appreciates that significant safety benefits can be 
achieved through innovation and development of new technologies 
and products, and we continue to stress that safety is the top 
priority of the Department and FHWA.

        Responses by Jeffrey F. Paniati to Additional Questions 
                          from Senator Inhofe

    Question 1. The testimony we have heard so far suggests 
that data limitations constrain the intended data-driven focus 
of the HSIP program. What is the best way to encourage improved 
data collection-especially when it comes to helping states 
improve their strategic highway safety plans?
    Response. There is probably not just one ``best way'' to 
encourage improved data collection, but FHWA believes that in 
working together with NHTSA and FMCSA and through State-level 
Traffic Records Coordinating Committees (TRCCs), data 
collection and quality can be improved. The States vary widely 
in terms of the quality and accessibility of necessary data. 
Several activities are underway to improve data systems in all 
States:
     Thirty-two States have identified data and data system 
improvements as a priority in their Strategic Highway Safety 
Plans. Many types of Federal funds are available to States for 
data system improvements.
     FHWA takes an active role in the USDOT Traffic Records 
Coordinating Committee, an intermodal team that provides strong 
coordinated Federal leadership to maximize the efficiency and 
effectiveness of integrated roadway, traffic and safety data 
collection and analysis.
     FHWA actively supports NHTSA on the State Traffic Safety 
Information System Improvement Grants (``408 Grants''), an 
incentive program that provides funds to States to improve 
their data systems. FHWA division personnel have been 
extensively involved in the State TRCCs.
     FHWA has developed, in consultation with FMCSA and NHTSA, 
a ``Crash Data Improvement Program'' that provides States with 
a detailed analysis of their crash data system ``health'', 
training in how to make improvements, and individualized 
attention from data systems experts. This program has been 
piloted in two locations and additional offerings are being 
scheduled.
     The Model Minimum Inventory of Roadway Elements (MMIRE) 
program will more clearly define a set of standardized elements 
that will be beneficial in performing analyses to make program 
and project decisions. MMIRE elements have been vetted with 
traffic records professionals and ``cross walked'' with safety 
analysis tools available or under development. FHWA has 
initiated a number of activities to move this concept forward, 
including establishing an executive steering committee, 
developing outreach materials on MMIRE for State and local 
partners, and initiating a contract to begin development of the 
MMIRE.
     The Modification to 23 CFR 924 Notice for Proposed 
Rulemaking (NPRM) includes specific references relating to the 
importance of evaluation, and the need for States to collect 
and maintain a record of crash, roadway, traffic, vehicle, case 
or citation adjudication and injury data on all public roads. 
Additionally, the NPRM indicates that new rule will require 
States to have a process for advancing their safety data 
collection and analysis capabilities.

    Question 2. I understand from today's testimony there is 
inconsistency among States in how they are implementing the 
HSIP program. I'd like to ask both of you if you think this is 
a significant problem or a reflection of the broad flexibility 
we wrote into SAFETEA. If you think it is a problem, does it 
need to be addressed legislatively or administratively?
    Response. While we recognize that there are inconsistencies 
between the States in implementation of the HSIP, we do not 
think this indicates a significant problem or should be a major 
concern. The differences between the States' implementation of 
the HSIP program are a reflection of their differing safety 
needs and challenges. The flexibility provided by the HSIP is 
essential to allow States to identify their unique safety 
needs. Strategic Highway Safety Plans have validity because 
they are data driven, comprehensive, and represent a consensus 
with safety stakeholders. The SHSP process requires the 
flexibility to focus HSIP funds on the priorities that address 
pressing safety problems rather than relying on traditional 
funding categories without examining safety data. The planned 
revision of 23 CFR 924 will provide States updated guidance to 
implement the HSIP. SAFETEA-LU has provided a good foundation 
to build on and points us in the right direction.

    Question 3. 23 CFR, Chapter 1, Sec 655.411, as I understand 
it, prohibits the use of proprietary or patented products in 
Federal-aid projects unless:

    1) The product has been selected through a competitive bid 
process;
    2) A State certifies that the patented product is essential 
to the project and no suitable alternative exists;
    3) The patented product will be used for experimental 
purposes in a small portion of the project;
    4) If there is a ``public interest'' finding by FHWA that 
use of the product is in the interest of the public.

    Several associations (ATSSA, ARTBA, AASHTO, AGC) have 
suggested that the existing proprietary rule discourages the 
use of innovative products simply because they are proprietary. 
ATSSA specifically states while ``product innovators often 
enjoy a temporary marketplace advantage, fostering additional 
innovation by competitors, which serves the public interest . . 
. [that] temporary advantage should not be used as a 
justification for preventing implementation of the product 
innovation.''
    In others words is the rule as currently drafted 
discouraging innovation because States are not able to use 
patented products and thus there is limited incentives to 
develop innovative products that can increase safety?
    Response. We don't believe that our regulations are too 
cumbersome or stifle innovation. Rather, they attempt to strike 
a balance between allowing innovation to be introduced into the 
market without adversely affecting the competitive environment, 
and contain several options designed to accomplish that 
objective. New products can be introduced:

     Through competitive bidding with other suitable 
proprietary and non-proprietary products from multiple 
manufacturers
     As a unique product for which there is no suitable 
alternative (i.e., no competing product that performs the same 
function)
     On an experimental basis
     Through FHWA approval of the State's request to use a 
proprietary product as being in the public interest

    And Federal-aid funding recipients can also choose to use 
proprietary products on Federal-aid projects on a non-
participating basis.
    We recently performed a survey of our Division offices on 
recently granted public interest findings, which revealed over 
300 approvals for a variety of products. We believe that this 
level of activity provides evidence that existing regulations 
and processes are working, not that innovation is being 
stifled.

    Question 4. Has the Administration given any thought to 
revisions to the rule to address the concerns raised by States 
through AASHTO and industry? If so, what do you believe could 
be done and if no discussions have taken place please explain 
why not.
    Response. Yes, we have considered this issue from a number 
of perspectives and have also met with stakeholder groups on 
the topic. At this time, we continue to believe that the 
regulation (23 CFR 635.411) does not need to be revised. As 
noted above, the regulation strikes a balance between allowing 
innovation to be introduced into the market without adversely 
affecting the competitive environment and contains several 
options designed to accomplish that objective. The survey 
results noted above provide evidence that existing regulations 
and processes are working, not that innovation is being 
stifled. In addition, we have implemented an internal web page 
so that Division Administrators can see what products their 
counterparts in other States have seen and approved or 
disapproved. This should help Division Administrators make 
quicker and more informed decisions on requests for public 
interest findings.
    We do understand the continuing interest of certain 
stakeholder groups in this issue, and we would be happy to work 
with the Committee and others if and when further discussions 
go forward.

    Question 5. Given our transportation challenges, wouldn't 
you agree that we need to allow States to select the best 
product for the job and doesn't 635.411, as currently drafted, 
have a chilling effect on use of innovative products.
    Response. We don't believe that our regulations have a 
chilling effect on the use of innovative products. Rather, as 
noted above, they attempt to strike a balance between allowing 
innovation to be introduced into the market without adversely 
affecting the competitive environment. The regulations contain 
several options designed to accomplish that objective. As an 
example of this process at work; last year, 15 States requested 
that FHWA approve use of a new sign sheeting product that has 
the potential to significantly improve sign visibility at 
night. In this case, the asserted benefits of the new product 
over other high quality sign sheeting products, that are 
available from a number of manufacturers, were not so clear as 
to justify the ability to sole source this product in a large 
number of States on a widespread basis, for 3 years as 
requested. This determination was based on a detailed technical 
review within FHWA. Instead of approving the broad request for 
a public interest finding, we recommended to these States that 
they seek more limited authority to experiment with the product 
to develop the more definitive safety benefits data that would 
support such a finding. We also provided guidance on how an 
appropriate experimental plan could be developed and offered to 
help States pool their resources if a pooled-fund approach was 
desired. At this time, none of the 15 States (or any others) 
has approached us to request such experimental authority.
    Protecting and improving highway safety is FHWA's top 
priority. If there is a product that can clearly improve 
highway safety or other areas of the highway infrastructure, we 
would not hesitate to approve its use. The safety evidence 
simply was not that clear-cut in the example above, and the 
potential negative impact on competition was substantial.

    Senator Lautenberg. Thank you very much.
    Ms. Siggerud, welcome.

STATEMENT OF KATHERINE A. SIGGERUD, MANAGING DIRECTOR, PHYSICAL 
                     INFRASTRUCTURE ISSUES

    Ms. Siggerud. Chairman Lautenberg, Ranking Member Inhofe, I 
appreciate your invitation to GAO to appear at this hearing.
    As Mr. Paniati explained, FHWA has a number of programs 
with the important goal of reducing crashes and fatalities on 
the Nation's roads. My statement focuses today on just one of 
those programs, the Highway Safety Improvement Program, or 
HSIP, which provides funds to States for infrastructure 
improvements at hazardous locations.
    While this program continues some aspects of earlier 
authorization, SAFETEA-LU added a number of new features and 
requirements. We have been reviewing this program at the 
request of Ranking Member Inhofe and expect to report out on it 
this fall. Therefore, today I will provide preliminary 
information on, first, the extent to which States have 
implemented HSIP requirements set forth in SAFETEA-LU; second, 
the types of guidance and assistance FHWA provided to the 
States; and third, the result of HSIP, including the setaside 
programs for rail grade crossings and high-risk rural roads.
    To implement HSIP requirements, States have submitted 
Strategic Highway Safety Plans that cover all aspects of 
highway safety, including infrastructure, behavioral and 
emergency medical services projects. They have consulted an 
array of stakeholders. State officials view these new planning 
requirements positively, especially the collaboration they 
encourage among safety stakeholders.
    Mr. Chairman, I testified yesterday with the President of 
the State association that implements NHTSA grants, and he was 
also supportive of these plans.
    States have also submitted the so-called 5 percent reports. 
These are meant to increase public awareness of highway safety 
by identifying the 5 percent most hazardous places in the 
State, along with possible solutions and their costs. FHWA 
posted these reports on its website.
    However, States do not yet have the crash data analysis 
systems intended by SAFETEA-LU to support data-driven planning. 
These systems are intended to identify hazardous locations and 
to analyze solutions to help States select projects. Therefore, 
they require substantial data, including first, data from crash 
reports in a format such as GPS that can be used for mapping 
crashes on all public roads; second, data on the 
characteristics of all public roads, such as the number of 
lanes with the shoulders; and third, software for analyzing 
these data.
    Typically, States have better data on the roads they own 
than on locally owned roads, but State-owned roads account for 
a relatively small proportion of public road miles. Therefore, 
most States cannot currently perform the analysis envisioned in 
SAFETEA-LU or fully meet the requirements for the 5 percent 
reports. Estimates to obtain the necessary data run into the 
hundreds of millions. FHWA is developing software that may help 
States perform their safety analyses when the data become 
available.
    To help States plan and carry out HSIP, FHWA provided 
guidance on preparing the safety plans, on the 5 percent 
reports and other prior reports, offered training for State 
officials and participated in every State strategic planning 
process. FHWA has not yet established deadlines for some 
efforts related to crash data analysis. FHWA did set an August 
2009 deadline for States to be able to locate crashes on public 
roads electronically, but has yet to establish deadlines for 
States to have the required data on roadway characteristics.
    In its guidance on the 5 percent report, FHWA 
understandably allowed the States to develop their own 
methodologies so they could use whatever data they had, and 
partly as a result, the States have developed widely varying 
versions of this report. Because some of them use a format that 
makes it difficult for the public to identify locations of 
listed sites, this report is not always increasing public 
awareness as intended.
    It is too soon to evaluate fully the results of States' 
efforts to carry out HSIP under SAFETEA-LU. States submitted 
their Strategic Highway Safety Plans in 2006 and 2007. It 
usually takes a year or more to select and construct a project 
and additional time to evaluate its impact.
    However, Mr. Chairman, we already have questions and issues 
for next year's authorization. First, only seven States have 
taken advantage of the provision that allows them to transfer 
some HSIP funds to behavioral programs, such as efforts to 
enforce drunk driving laws. States may do this if they certify 
they have met all highway safety infrastructure needs. Some 
States are apparently concerned about the implications of 
certification, others simply have more safety infrastructure 
projects.
    It appears that improvements to rail grade crossings are 
not a high priority for a substantial number of States, in 
fact, two-thirds of the 25 that we reviewed. But SAFETEA-LU 
reserves about 17 percent of HSIP's authorized funding for 
these projects through a setaside program. Last month's 
technical corrections bill provides States with flexibility but 
still requires certification.
    Finally, implementation of HSIP's high-risk rural road 
setaside program is in its early stages. Five of the six States 
we visited were having some difficulty identifying qualifying 
roadways and projects because of the same data challenges that 
I mentioned earlier. This may explain the relatively low spend-
down rate for this program.
    Mr. Chairman, this completes my statement. I am happy to 
answer any questions you may have.
    [The prepared statement of Ms. Siggerud follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
      Responses by Katherine A. Siggerud, to Additional Questions 
                           from Senator Boxer

    Question 1. Do you think that lower speed limits would make 
the roads safer? Do you think that a national speed limit would 
be effective?
    Response. Speeding is one of the major factors contributing 
to traffic crashes and can result in more serious injuries and 
fatalities in the event of a crash. According to the National 
Highway Traffic Safety Administration (NHTSA), in 2006, 
speeding was a contributing factor in 32 percent of all fatal 
crashes, and 13,543 lives were lost in speeding-related 
crashes. GAO has not conducted any recent work on the potential 
safety effects of imposing a national speed limit,\1\ although 
we have ongoing work concerning the potential energy savings of 
such a limit. A 1998 NHTSA study\2\ found that fatalities 
increased in states that increased their speed limits following 
the repeal of the 1974 law imposing a national speed limit of 
55 miles per hour,\3\ although the study found variability 
within and among states, depending on roadway conditions. In 
considering imposing a national speed limit, Congress would 
need to consider the potential impacts on safety, as well as 
impacts on congestion and travel time for both passengers and 
freight. Additionally, a national speed limit would require 
effective enforcement if it is to succeed in improving highway 
safety. Besides considering a national speed limit, Congress 
could weigh the pros and cons of requiring NHTSA to conduct a 
national high visibility enforcement campaign--which combines 
intensive enforcement of a specific traffic safety law with 
extensive media communication to inform the public about the 
campaign--on speeding, similar to the campaigns that the agency 
currently conducts on seat belt usage and impaired driving.
---------------------------------------------------------------------------
    \1\ We reported in 1977 that fatalities and injuries from crashes 
significantly declined after the national 55-miles-per-hour speed limit 
law was passed, although the lower speed limit was only one of several 
factors that contributed to the decline. See GAO, Speed Limit 55: Is It 
Achievable?, CED-77-27 (Washington, DC.: Feb. 14, 1977).
    \2\ Department of Transportation, National Highway Traffic Safety 
Administration, Report to Congress: The Effect of Increased Speed 
Limits in the Post-NMSL Era, (Washington, DC.: February 1998).
    \3\ The 1974 law imposing the national speed limit was the 
Emergency Highway Energy Conservation Act, which prohibited the 
Secretary of Transportation from approving any Federal aid highway 
projects in any State having a maximum speed limit in excess of 55 
miles per hour. In November, 1995, Congress repealed the maximum speed 
limit by passing the National Highway System Designation Act of 1995, 
which made the states responsible for designating all speed limits on 
roadways.

    Question 2. What is the most important thing that can be 
done to improve road safety? Is there a Federal element to 
that, or is it purely State or local?
    Response. NHTSA's crash data show that the two leading 
factors contributing to fatal crashes are the failure to use 
safety belts and alcohol-impaired driving; speeding and 
motorcycle crashes are also key factors. All these factors can 
overlap. For example, many of the people killed in alcohol-
related crashes were also unrestrained. Overall, unrestrained 
fatalities and alcohol-involved fatalities have decreased over 
the last two decades. In contrast, overall speeding-related 
fatalities have remained fairly constant, and motorcycle 
fatalities and fatality rates have increased significantly over 
the last decade. Other factors are also important, including 
the diverse issues associated with crashes involving older 
drivers, young drivers, large trucks, and pedestrians and 
bicyclists. Certain infrastructure improvements can help 
mitigate these problems. For example, rumble strips and median 
barriers can help reduce the probability and severity of 
alcohol-related crashes. Historically, the Federal Government 
has supported states' efforts to address many of these factors, 
through infrastructure improvements funded by the Federal 
Highway Administration's (FHWA) Highway Safety Improvement 
Program (HSIP) and through NHTSA's incentive grants and 
penalties that encouraged states to adopt laws against 
unrestrained and alcohol-impaired driving, among others 
programs.
    As I noted during the July 17, 2008 hearing, states have 
developed, in part in response to Federal requirements, 
strategic highway safety plans that address the full range of 
approaches that can be helpful in addressing these diverse 
factors, including (1) highway infrastructure improvements, (2) 
behavioral approaches such as education and enforcement 
projects meant to change drivers' behavior, and (3) emergency 
medical services approaches designed to reduce response times 
to crashes and improve medical care in the aftermath of a 
crash, for example. However, GAO's recent work has pointed to 
the need for NHTSA and FHWA to encourage further improvement of 
states' data reporting and analysis capability and their 
program evaluation of highway safety activities to ensure that 
states can identify and select the best possible safety 
improvements needed to address problems and to ensure that 
State grant recipients are awarded Federal funds based on their 
performance.\4\
---------------------------------------------------------------------------
    \4\See GAO, Highway Safety: Preliminary Observations on Efforts to 
Implement Changes in the Highway Safety Improvement Program Since 
SAFETEA-LU, GAO-08-1015T (Washington, DC.: July 17, 2008); Traffic 
Safety Programs: Progress, States' Challenges, and Issues for 
Reauthorization, GAO-08-990T (Washington, DC.: July 16, 2008); Traffic 
Safety: Improved Reporting and Performance Measures Would Enhance 
Evaluation of High-Visibility Campaigns, GAO-08-477 (Washington, DC.: 
April 25, 2008); and Traffic Safety: Grants Generally Address Key 
Safety Issues, Despite State Eligibility and Management Difficulties, 
GAO-08-398 (Washington, DC.: March 14, 2008).

    Question 3. I realize that GAO in not finished with its 
study. Is GAO considering recommendations (for current study)? 
How would you advise us, as we prepare for next year's 
reauthorization, to improve the highway programs so that safety 
is seriously addressed? On balance, did SAFETEA-LU's changes 
add value to highway safety? Are we on the right track?
    Response. Currently, we are considering recommendations to 
improve data analysis and reporting and targeting of funds 
under HSIP, although our recommendations could change as we 
finalize our report in the coming weeks. Prior to issuing our 
report, we will share our draft report and recommendations with 
the Department of Transportation to get their comments.
    On balance, SAFETEA-LU's changes to HSIP have been 
positive. As I noted in my July 17 statement, the coordination 
between safety stakeholders that occurred in developing 
strategic plans was good and the focus on goal-setting and 
data-based planning to reduce fatalities and serious injuries 
is always positive. However, states still have significant 
obstacles to meet the data requirements of SAFETEA-LU and these 
data may be costly to obtain.

    Question 4. Would you advise Congress to move in the 
direction of basing the safety program funding on performance? 
For example, states that make progress would receive funding or 
some other benefit as an incentive?
    Response. GAO supports the concept of performance-based 
funding if the agency uses clear performance criteria and 
relies on sound data analysis to measure performance. In our 
prior work, we have often noted that Federal transportation 
programs, including HSIP, lack performance measures and 
incentives for good performance. Implementing such measures and 
incentives for highway safety programs would involve (1) 
clearly defining specific goals in the Federal interest and 
ensuring that the goals of all the relevant Federal highway 
safety programs are coherent and complementary, (2) deciding 
how performance should be measured, and whether national 
measures can or should be developed in a way that gives states 
flexibility to address their unique circumstances, (3) 
addressing challenges that states face in generating and 
analyzing the data required to measure performance, and (4) 
determining how decisions about funding the Federal highway 
safety programs should be linked to the performance of those 
programs. Given some of the challenges that FHWA and the states 
have encountered in implementing HSIP that I discussed in my 
July 17 statement--including the data limitations that states 
face and the questions about whether certain program provisions 
align well with states' safety priorities--it may be difficult 
for FHWA and the states to quickly develop and implement a full 
range of performance measures that can be used to make funding 
decisions. However, Congress and the administration may be able 
to identify some interim indicators of performance--one example 
might be developing a full plan, with milestones, for 
completing roadway inventory data systems and there may be 
other interim indicators--that could form the basis for 
rewarding states that are taking actions to advance their 
ability to measure the performance of their highway safety 
programs.

    Question 5. What is the data telling you about the 
effectiveness of various countermeasures? How can you tell what 
combination of features should be considered in an effective 
plan?
    Response. As noted in my July 17 testimony, it is too soon 
to tell if the projects implemented under states' strategic 
highway safety plans have been effective in improving highway 
safety because states need time to identify, implement, and 
evaluate HSIP projects undertaken after adopting their plans. 
However, some State transportation officials we interviewed 
noted that relatively low cost measures--such as cable median 
barriers, rumble strips, and other measures--can have positive 
impacts. Furthermore, according to information provided by 
State officials in Missouri, cable median barriers were highly 
effective in reducing cross-median head-on collisions on 
highways with center medians, and these barriers played a role 
in allowing the State to achieve its 2008 safety goal in 2007, 
a year early.
    The strategic highway safety plans we reviewed laid out a 
broad range of planned safety approaches, including the three 
approaches required by SAFETEA-LU (infrastructure improvements, 
behavioral approaches, and emergency medical services 
projects), but the specific mix of approaches varied between 
states. For example, some states emphasized older driver safety 
and others commercial vehicle safety, among other approaches. 
Furthermore, while we did not evaluate the comparative 
effectiveness of states' strategic highway safety plans, we 
believe plans that rely on data-based analysis of crash and 
other relevant data are most likely to effectively address 
State safety needs because such analysis can shed light on the 
most significant safety problems facing a given State and the 
causes of those problems, and help states target resources to 
appropriate remedies.

    Question 6. How do you think states and others should be 
held accountable for results? How can we respect the 
differences among the states while maintaining a serious 
commitment to safety nationwide?
    Response. It is unlikely that a single yardstick could 
appropriately measure all of the critical aspects of states' 
performance. The safety issues facing states vary and, as a 
result, current State strategic plans include different 
combinations of approaches. Performance measures that consider 
these differences could include measures of a state's progress 
over time or success in meeting a federally defined interim 
indicator of performance, such as compiling a complete crash 
data analysis system. The NHTSA grant program has shown that 
grant amounts can be based, for example, on rates of seat belt 
use and on adoption of primary safety belt laws and laws to 
prevent impaired driving. In addition, given data currently 
available on states' road characteristics and safety 
performance, interim indicators of performance, designed to 
take into account differences among states, could be developed. 
As noted above, these indicators could improve in quality and 
rigor as safety performance data and reporting improve.

    Question 7. What advantages and safety gains do you foresee 
from using more advanced technologies in crash data collection? 
Your testimony referred to GPS systems versus hand-written 
crash reports. Could you elaborate? Is there any benefit to 
having a national data system where states can share 
information?
    Response. Law enforcement agencies around the country are 
implementing field-based information technologies that allow 
data to be recorded directly into a state's data system, 
bypassing the need for data entry of paper files. One such 
technology is the Traffic and Criminal Software (TRACS) which 
allows local and State police to enter crash records 
electronically. If the police cruiser also has GPS 
capabilities, this system allows location data to be precisely 
recorded as well. Some of these systems have been funded by 
NHTSA's grant for improving traffic safety data. However, some 
states are still encountering barriers in getting timely, 
useful, and reliable traffic safety data to make highway safety 
planning decisions and to evaluate the effectiveness of their 
safety programs.\5\
---------------------------------------------------------------------------
    \5\See GAO, Highway Safety: Improved Monitoring and Oversight of 
Traffic Safety Data Program Are Needed, GAO-05-24 (Washington, DC.: 
Nov. 4, 2004).
---------------------------------------------------------------------------
    Broader implementation of advanced technologies in crash 
data collection has several benefits. First, electronic crash 
reports can be prepared more quickly and with fewer errors than 
paper reports. Consequently, these safety data are available 
for analysis sooner, allowing safety program managers to 
respond more quickly to changing circumstances. Additionally, 
systems that contain information about geographic location, 
such as GPS, allow safety engineers to more easily identify 
locations that experience frequent crashes. When coupled with 
other data about roadways, safety engineers could develop 
potential safety remedies for these locations without 
conducting more costly, time-consuming field audits.
    There could be some benefits to developing a system of 
consistent, national level data. If all data relevant to safety 
analysis are collected in every State in the same way, State 
safety program managers could conceivably make cross-State 
comparisons that could help determine whether strategies 
implemented in other states might be beneficial in their own 
state. Furthermore, safety analytic tools, such as Safety 
Analyst, a software tool currently under development by FHWA, 
will require some degree of data consistency to be implemented 
properly. NHTSA has already developed a national standard for 
consistent crash data collection--the Model Minimum Uniform 
Crash Criteria (MMUCC). Currently, MMUCC is a voluntary 
guideline and states vary in their compliance with it, but 
NHTSA expects greater compliance in the future because of a 
SAFETEA-LU provision that requires states to adopt the MMUCC as 
soon as practicable in order to qualify for traffic safety 
information system improvement grants. FHWA is also developing 
uniform standards for roadway inventory data elements, called 
Model Minimum Inventory of Roadway Elements (MMIRE), which the 
agency anticipates will be fully developed and disseminated to 
states by 2009. Finally, we note that the benefits of pursuing 
national level data should be weighed against the costs of 
doing so.

      Responses by Katherine A. Siggerud, to Additional Questions 
                          from Senator Inhofe

    Question 1. The testimony we have heard so far suggests 
that data limitations constrain the intended data-driven focus 
of the HSIP program. What is the best way to encourage improved 
data collection--especially when it comes to helping states 
improve their strategic highway safety plans?
    Response. In the course of our work, Federal and State 
transportation officials noted a number of ideas that could 
encourage improved data collection, including the following:

     setting clear expectations for states of required data 
and timelines for acquisition,
     ensuring that the data collection requirements are not 
overly burdensome,
     continuing to make Federal funds available to support 
states' efforts to improve data, as currently provided by FHWA 
and NHTSA, and
     integrating safety data with other purposes--for example, 
requiring the collection of roadway data that can also be 
useful for maintaining and operating roads, as well as for 
safety analysis--to generate additional value in the data.

    Question 2. I understand from GAO's testimony that there is 
inconsistency among states in implementing the HSIP program. Is 
this a significant problem or a reflection of the broad 
flexibility we wrote into SAFETEA? If you think it is a 
problem, does it need to be addressed legislatively or 
administratively?
    In the area of data analysis, FHWA stopped short of 
requiring states to gather all the data needed for the type of 
safety analysis specified in SAFETEA-LU. For example, 
recognizing the data limitations many states face, FHWA did not 
set a date for states to have the required data on roadway 
characteristics for all public roads. Furthermore, in its 
guidance on the ``5 percent report'' that lists the top 
hazardous locations on all of a state's public roads, FHWA did 
not specify a methodology and, as a result, states' 5 percent 
reports vary widely, raising questions about how this report 
can be used. GAO is still evaluating information about FHWA's 
implementation of the ``5 percent report'' requirement and 
considering whether any recommendation(s) in this area would be 
appropriate.
    In other areas, the flexibility afforded by SAFETEA-LU--
such as the flexible funding provision that allows states to 
transfer up to 10 percent of their HSIP funds to behavioral and 
emergency medical services projects if they certify that they 
have met all their safety infrastructure needs--could help 
states improve highway safety and implement the most effective 
safety remedies, provided states are able to conduct the 
underlying data analysis needed to identify problems and 
appropriate solutions. However, relatively few states have 
taken advantage of this particular flexible funding provision, 
at least in part because of the condition attached to 
transferring funds. Moreover, as I noted in my July 17 
statement, other HSIP funding provisions, such as the set-
asides for rail-highway crossing safety and high risk rural 
roads, may not align with the safety priorities of some states 
and so there may be value in considering additional 
flexibilities for states in applying those funding provisions.

    Senator Lautenberg. Thank you very much, Ms. Siggerud.
    Mr. Paniati, you make note of the fact that 90 percent of 
crashes are caused by human factors, speeding, lack of seat 
belt use, alcohol impairment and so forth. If the key to 
improving safety is changing driver behavior, what has FHA done 
to influence drivers directly or encourage States to do so? 
What do you see as having been done to change human behavior 
there?
    Mr. Paniati. As you are aware, Senator, our primary 
responsibility and focus is on the infrastructure aspects of 
the system. We have been working aggressively to improve the 
communication to drivers through signing, marking, those kinds 
of activities.
    The Highway Safety Improvement Program has been 
particularly beneficial, in that it has created focus among the 
States. They have taken data and focused on their programs. 
Rural roads are a particular problem. We have seen advancements 
both on the State side as well as on the Federal side in things 
like uniform traffic control devices and larger signs. We 
recently put forward minimum reflectivity requirements that 
specify the minimum brightness for a sign at night, which is an 
important human factors element to give drivers guidance.
    We are continually working to advance the ability to 
communicate with drivers to give them the kind of instruction 
and information that they need to safely navigate the roadway 
system. Clearly, it is part of a larger whole. We need, as you 
suggest, to have all drivers, all occupants in vehicles wearing 
seat belts. We need to have all motorcyclists wearing helmets. 
We need to have alcohol and other impaired driving laws in 
place and fully enforced. We need rational speed limits and 
speeding aggressively enforced.
    Bringing all those things together, both from the 
behavioral side and in the vehicle with the driver and in the 
infrastructure, that comprehensive solution is what it is going 
to take to really drive the numbers down.
    Senator Lautenberg. In your judgment, should Federal 
Highway enlarge its scope of activities? You identified the 
fact that there are so many of these deaths as a result of 
human behavior. And you did mention a few things. What do you 
think FHA's role ought to be doing in getting these things 
done? Do you think they should be more aggressive, or do we 
leave that to other departments?
    Mr. Paniati. I think we have a strong role to play on that 
infrastructure part of the equation. I think SAFETEA-LU and the 
Strategic Highway Safety Plans and the Highway Safety 
Improvement Program requirements point us in exactly the right 
direction, taking that data-driven comprehensive approach to 
safety that really targets the resources at where the problems 
are.
    Senator Lautenberg. Let me interrupt and ask you this. Do 
we know how many deaths are caused as a result of the 
infrastructure deficiencies, whether as you said, be it signage 
or so forth, or inadequate structure in the highways and the 
design of roads and the repair of roads? Is there anything that 
says, in Federal law, that roads have to be kept to a certain 
minimum degree of operability? Anything like that?
    Mr. Paniati. We certainly know that virtually every crash 
has a series of events that contribute to it. Often, as you 
note, it is driver error. But that driver error may be 
compounded by a roadway design issue or a signing issue or 
driver distraction issue or others. It is important to the 
interrelationship of the factors.
    We don't have good, solid data that identifies clearly the 
contribution of specific elements. But we do understand the 
number of crashes, for example, that are related to running off 
the road or related to speeding. We use that information to 
guide the kinds of tools that we put in place at the Federal 
Highway Administration to try to combat those.
    Senator Lautenberg. Ms. Siggerud, Federal law only requires 
seat belts on small school buses, even though most students are 
transported on large buses. Considering the 7,000 injuries 
annually to children in school buses, do you think that the DOT 
should require seat belts on all school buses?
    Ms. Siggerud. Chairman Lautenberg, I can tell you that GAO 
has not done a study specifically on that topic. But there are 
safety standards for school buses. They implement the concept 
of compartmentalization, so that when students are riding in a 
bus and are in a crash, they are generally contained and not 
able to move, usually about the bus, in the case of a crash. So 
the standards for buses currently are specifically designed to 
be safe.
    In some work we did last year, looking at Head Start 
transportation, we did say that the addition of safety belts 
would generally be an Improvement in safety over the 
compartmentalization standard.
    Senator Lautenberg. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Ms. Siggerud, the testimony we have heard so far suggests 
that data limitations constrain the intended data-driven focus 
of the HSIP program. What is the best way to encourage improved 
data collection, especially when it comes to helping States 
improve their Strategic Highway Safety Plans?
    Ms. Siggerud. Let me first of all say that we are certainly 
fully supportive of the concept of the data-driven safety 
planning and improving the data on roadway characteristics and 
crash locations that are necessary to make that happen. It is 
clear that States will continue to need to use both the Federal 
Aid Highway dollars coming through the HSIP program for that 
purpose, as well as making good use of the NHTSA grants that 
also allow States to put new crash reporting systems into place 
and try to get better electronic reporting from law enforcement 
officers.
    In our work several years ago, we pointed to a number of 
barriers as simple as having law enforcement officers filling 
out pieces of paper rather than reporting the crashes 
electronically, or not having GPS in order to be able to locate 
the crash. If we can continue to provide those grant dollars 
and assure that States make use of them and make progress in 
this area, that will be very important moving forward.
    Senator Inhofe. I see. Mr. Paniati, I was going to request 
a hearing actually on proprietary or patented products, and 
decided we could get this done in this hearing also. So I am 
going to ask you, then I will be asking Ms. Martinovich a very 
similar question on the second panel.
    It has to do with the, as I understand, the prohibition of 
the use of proprietary and patented projects in the Federal Aid 
projects, unless, and it lists four things: the product has 
been selected through a competitive bid process; the State 
certifies that the patented product is essential to the project 
and no suitable alternative exists; the third being the 
patented product will be used for experimental purposes in a 
small portion of the project; and fourth--these are the 
exceptions--if there is a public interest finding by the FHWA 
that use of the product is in the interest of the public.
    Several associations, and I have a list of those 
associations, have suggested that the existing proprietary rule 
discourages the rule of innovative products simply because they 
are proprietary. One of the safety organizations specifically 
states, ``Product innovators often enjoy a temporary 
marketplace advantage, fostering additional innovation by 
competitors which serves the public interest. That temporary 
advantage should not be used as a justification for preventing 
implementation of the product innovation.''
    In other words, is the rule as currently drafted 
discouraging innovation because States are not able to use 
patented products, and thus there are limited incentives to 
develop innovative products that can increase safety? What 
would you say?
    Mr. Paniati. We think the existing regulation allows us to 
maintain the proper balance between, as you suggest, allowing 
innovation on one hand, but not affecting the competitive 
environment in the marketplace on the other hand. We try to 
maintain that balance.
    Over the last 10 years, our divisions have given over 300 
approvals under that fourth exception that you cited. A 
specific example in the safety area is in the area of cable 
median barrier.
    Senator Inhofe. Of what?
    Mr. Paniati. We call it cable median barrier. It is a type 
of guard rail used in narrow medians. It is relatively low-cost 
and has shown to be very effective in improving safety for 
roadway departure crashes.
    A particular product that was developed as a proprietary 
product was brought forward and appeared to be a more cost-
effective product. We asked that that product be tested first 
under the experimental exception that you cited. It was tested 
and demonstrated clear safety benefits, at which point we 
granted a limited 1-year term exception, to allow it to be used 
in the public interest.
    The result was that it was introduced into the marketplace. 
It result in some competition. Other competitors came forward. 
We are in a situation today where we have a variety of cable 
median barriers available from a variety of manufacturers, now 
available in the competitive marketplace. I think that is the 
kind of outcome we are after in that balance between innovation 
and marketplace competition.
    Senator Inhofe. What parts do you think that the States 
should be expanded in their ability to deal with this?
    Mr. Paniati. We believe that the current process with the 
current exceptions are working adequately to provide the 
opportunity for innovation to be introduced and for the 
competitive environment. So we would not recommend any change 
to the current regulation.
    Senator Inhofe. All right, thank you, Mr. Chairman.
    Senator Lautenberg. Thank you.
    I just have a technical question. That is, in your notes, 
Mr. Paniati, you say that the cause of deaths of people aged 2 
to 34 is dominated by highway accidents. Does that consider 
illnesses and things of that nature, accidents and all?
    Mr. Paniati. Yes, the No. 1 cause of death for individuals 
between the ages of 2 and 34 are highway crashes.
    Senator Lautenberg. That is quite incredible when you think 
of what that kind of a toll on a military experience would be, 
it would shock the Country throughout to hear these things.
    Then I want to ask Ms. Siggerud, the Federal Highway Safety 
Improvement Program was designed to recognize differences among 
the States and their safety needs, that is the question you 
just dealt with, to allow them to choose, them, the States, to 
choose how best to improve safety. Well, there is a lot of 
flexibility. How can we be certain that these funds are being 
used effectively in that regard?
    Ms. Siggerud. Let me take a step back to answer that 
question, Chairman Lautenberg. In general, GAO has raised 
issues over the past year or so about this very issue, in 
general, with the Federal Aid Highway program. That is, how can 
we be certain that in choosing to spend these formula funds 
that we are in fact choosing the investments that have the 
greatest effect on mobility, safety, whatever goal it is that 
we are talking about. And how can we understand the performance 
of these dollars, in other words, what results are we getting.
    I think when we turn to the safety programs, we are in a 
little bit better shape than we are in some of the other 
Federal Aid Highway programs, where we have even more 
flexibility in fairly nebulous concepts like mobility that we 
are trying to measure. With regard to the safety programs, we 
talked about all the efforts the States are putting in to 
understand where the crashes are happening, what the causes of 
the crashes are and that kind of thing. We have a much stronger 
basis from which to do data-driven planning.
    So if we can get to the point where we have confidence that 
the States have the data that they need and have a credible 
planning process in place, then I think we can also be 
confident that we are getting good accountability for the 
Federal dollar through the HSIP program.
    Senator Lautenberg. You say if, and it is an elusive thing. 
Even though, Mr. Paniati, we had some Improvement in the 
reduction of fatalities on the highway in the last year, that 
still leaves a number that is beyond imagination, over 40,000 
people.
    And I was pleased to hear that you listed motorcycle 
helmets as something that might encourage safer performance on 
the roads. I have been an advocate for a long time. But I am 
planning to come back with it again. We will see.
    Senator Inhofe, any other questions?
    Senator Inhofe. No, I just would observe, I asked the staff 
to give me the written statement of Mr. Paniati when he was 
talking about some of the successes here. And that is pretty 
impressive, that it fell by 868 deaths from 2005, and the 1.41 
per 100 million vehicle miles traveled, the lowest rate ever 
recorded. To what would you attribute most of that success?
    Mr. Paniati. I think we are seeing a concentrated effort 
across the board on highway safety in a way we haven't seen 
before on the infrastructure side. Earlier in my career, I 
spent 10 years working directly in the highway safety area. I 
can tell you that the emphasis at the State level, the 
coordination from both the behavioral and the infrastructure 
side and the overall commitment at all levels that exists today 
is dramatically improved from where it was 10 years ago.
    Senator Inhofe. We have both been around here for a while, 
I started on the House side in that committee that did the 
reauthorization. We didn't used to have much in there at all on 
safety, now there is a lot. I would assume that has something 
to do with the concentration on safety from reauthorization 
bills over the last 22 years that I am familiar with.
    Mr. Paniati. Absolutely. It has brought more resources to 
bear on the problem. As Ms. Siggerud testified, it created a 
construct within which we are strategically thinking about and 
identifying problems and using data to drive the resources to 
those problems. I think that is exactly the right approach to 
use. I think that is how you get results.
    We are hopeful that we are only at the beginning of the 
results that we are going to see and that those numbers are 
going to drop. There is some indication and expectation that 
they are going to drop significantly again in the most recent 
year's data. So we are hopeful we are on a trend that is headed 
in the right direction. We have a long way to go, no question 
about it. But we feel like we are moving in the direction we 
need to move.
    Senator Lautenberg. That raises an interesting question. 
That is, has the high price of gasoline reduced traffic on 
roads, thusly improved the safety figures? That is a terrible 
way to get there, that is to keep people from being able to 
operate their vehicles.
    Senator Inhofe. But that was not a factor in 2006?
    Senator Lautenberg. No, no, no. Oh, I take nothing away. 
Any percentage gained, though it was about 2 percent, as I 
calculate, it is a good result.
    I thank both of you for your public service and for being 
here today.
    With that, the next panel, please.
    [Remarks off microphone.] Ms. Martinovich comes with a lot 
of experience, 23 years of experience, including work on a 
number of national transportation issues. Ms. Gillan, as I 
mentioned, fights every day to improve the safety of our 
highways, as far as the trucks that use them. We thank you for 
your commitment.
    And Mr. Johns is the Director of the Center for 
Transportation Studies, University of Minnesota. Mr. Johns 
leads research teams in several study areas, including regional 
growth, transportation needs and access to destination.
    I thank each one of you for joining us and sharing your 
experience. I call on Ms. Martinovich first.

     STATEMENT OF SUSAN MARTINOVICH, P.E. DIRECTOR, NEVADA 
                  DEPARTMENT OF TRANSPORTATION

    Ms. Martinovich. Thank you, Senator. Good morning, Mr. 
Chairman, Senator Inhofe.
    My name is Susan Martinovich. I am the Director of the 
Nevada Department of Transportation. On behalf of the 
Association of State Highway Transportation Officials, AASHTO, 
thank you for having this hearing.
    Heightening the awareness of safety is of the utmost 
importance for the health and prosperity of the Nation. The 
steady level of over 42,000 fatalities per year must end. A 
recent study estimated the societal costs of all crashes in 
just larger metropolitan areas is a staggering $164 billion 
annually. This is nearly two and a half times greater than the 
$68 billion price tag for congestion. I am not downplaying 
congestion, coming from the fastest-growing State and home to 
Las Vegas, which enjoys over 43 million visitors a year.
    But over half of the congestion problem is caused by non-
recurring incidents. Curing safety greatly reduces the 
congestion problem.
    Crashes don't just affect the urban centers of our Country. 
Almost 60 percent of the fatalities occur in rural areas. They 
can have a tremendous economic impact. A fatal or severe crash 
incident in rural Nevada that closes InterState 80 causes a 
chain reaction of impacts. Over 70 percent of the goods and 
commerce coming from California cross the rural western States. 
Closures due to crashes result in long detours, hundreds of 
miles, and delays which impact delivery time and create 
additional user costs.
    So to address safety, AASHTO recommends a series of bold 
actions to continue our progress in reducing highway 
fatalities. These are recommendations across congressional 
jurisdictions, and go beyond just infrastructure improvements. 
They can save lives.
    First, adopt a national goal of halving fatalities over two 
decades and call for and fund a national summit on highway 
safety. Defining a national safety goal can bring focus and 
intensity to the problem. The goal adopted by AASHTO and our 
safety partners translates into saving 1,000 lives a year. With 
regard to the national summit, the last time the White House 
actively held a summit was in 1956, in conjunction with the 
interState highway system. So it would be great to lead the 
charge again with the renewal of that system.
    Continue the requirement of the Strategic Highway Safety 
Plans and require each State to update their plans at least 
once during the new authorization and call on each State to 
establish a State-set aggressive fatality reduction goal. These 
collaboratively developed plans prioritize and define the 
strategies and actions that address the States' most pressing 
needs, and these are individual States, from infrastructure 
improvements to education, and from enforcement to emergency 
response. The plans don't belong on the shelf. They need to be 
followed, revisited and measured.
    The safety plans and programming actions need to be data 
based. Good data is the foundation for determining the fatality 
and serious crash reduction targets and how and where money 
should be spent. We want to allow greater funding flexibility 
and greatly increase the level of funding for all safety 
programs. Flexibility is needed because a priority for one 
State can be very different for another. As an example, trees 
contribute to a large percentage of fatalities in Northeastern 
States. Nevada's one tree is under heavy guard.
    States following their safety plans should have the ability 
and flexibility to apply the safety funding to where their most 
critical needs lie and where they can have the biggest impacts 
with the minimal funding available. But we want, and the public 
should have, accountability. Therefore, spending needs to be 
performance-driven.
    Funding for highway safety programs should remain as 
separate funding categories comparable to the other core 
programs. Safety enhancements are infused within all of the 
capacity or rehabilitation investments and actions we take. 
When expenditures from these other core programs, such as the 
interState maintenance, such as the NHS and the bridge programs 
grow, then safety is increased. The current level of funding 
for highway programs has failed to keep pace with inflation. 
Congress should further enhance safety research and development 
in all areas from infrastructure and driver behavior to 
improvements in vehicles. Research provides an important tool 
to discovery of a feasible solution for minimal cost. Federal 
incentives and enhanced vehicle regulations can enable crashes 
to either be eliminated or their impact greatly reduced.
    We need to break through the compliancy plateau and take 
the effort up with additional fire and intensity if we want to 
save lives.
    I thank you very much for the opportunity to appear before 
you. I assure you that AASHTO is representing the States, is a 
strong advocate and we are anxious to be part of the team again 
to save lives. Thank you.
    [The prepared statement of Ms. Martinovich follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
        Responses by Susan Martinovich to Additional Questions 
                           from Senator Boxer

    Question 1. Do you think that lower speed limits would make 
the roads safer? Do you think that a national speed limit would 
be effective?
    Response. Let me answer the second part of your question 
first. If you mean a return to a nationally set limit by 
withholding Federal funds as we did in the 1970's-no. That was 
counterproductive and set the Nation back decades since the 
public did not accept it and the speeds were artificially set 
low on high speed designed roads. On the other hand, we know 
that about one-third of fatalities are speed related. The 
solution is appropriate speed setting-or speed management. When 
setting speed limits additional factors have to be considered 
such as driver behavior, the ability flamenco to effectively 
teaseled and the speeds for which the roadway facility is 
designed. On some roads it may mean raising them; on others, 
reducing the limits. Arbitrarily setting speed limits with out 
considering these factors or setting a national speed limit is 
likely to increase the likelihood of crashes. This occurs when 
drivers become frustrated due to the inability to drive the 
roadway at a comfortable and reasonable speed. When this occurs 
there are typically more passing maneuvers and risk taking 
behavior with an associated increase in head-on collisions. 
This would be especially prevalent in large rural western 
states that have long distances between urban centers connected 
by two-lane highways.
    In all cases, once set they need to be enforced!!! 
Automated speed enforcement can be an effective method 
particularly on freeway work zones, residential areas and 
school zones. The Governors Highway Safety Association which 
represents all the NHTSA grant recipients has advocated for a 
new speed management incentive program and AASHTO supports this 
initiative.

    Question 2. What is the most important thing that can be 
done to improve road safety? Is there a Federal element to 
this, or is it purely State or local?
    Response. Strong committed leadership from the top down 
meaning a visible push from the US Congress to the President to 
each Governor on down to local leadership (mayors, commissions, 
etc). We have seen this make a real difference internationally 
in France, England, Sweden and Australia.
    The Federal Leadership role is both with the US Congress 
enacting reforms of the current USDOT safety programs as I 
indicated in my testimony, and with the President and the 
Executive branch. Congress can take a leadership role by 
adopting the AASHTO goal of having fatalities within two 
decades as a new national goal and vision for safety and by 
calling for a national summit on highway safety--the last 
national summit was initiated by President Eisenhower.
    The President needs to focus on the issue and call on 
appropriate Federal officials to act as a team-from the USDOT 
to the DOJ to the Dept of Health and Human Service to the FCC 
on certifying enforcement equipment for example. Governors and 
local officials have to similarly take accountability through 
team efforts.
    Additionally, one of the most important things that ``'ill 
improve roadway safety is a consistent and focused approach to 
access management on our roadways. This is an effort that needs 
to be supported by all agencies.
    Freeways are one of the most tightly controlled access 
facilities we have in this country and typically carry the 
highest volumes of traffic yet have the lowest number of 
crashes per vehicle mile traveled. Appropriate and affective 
access management policies can make a significant difference in 
the number and severity of the crashes that occur on our 
roadway system. Policies on access management must be carefully 
balanced with the needs of the public to efficiently reach 
their desired destinations while allowing appropriate access to 
private properties and business developments. Implementing such 
policies can reduce the number of conflicts between motor 
vehicles, driver distractions are decreased, and improvements 
in roadway capacity can be achieved while still providing a 
roadway that promotes economic development and supports a 
reliable and attractive transportation system.

    Question 3. What is the real potential for technology to 
make a real difference? For example, is the best potential at 
the roadside or in the car? Or are lower-tech options just as 
important in the short run? How long would it take for those 
technologies to be in place?
    Should the Federal Government be doing something to 
accelerate development or adoption?
    Response. Road infrastructure, vehicle and enforcement 
technology all have a key role to play.
    Technology is already making a big difference. Newer model 
cars are required to have safety devices such as air bags and 
anti lock braking systems. Transportation agencies are using 
electronic instrumentation to monitor and operate the roadway 
systems to provide faster response times to traffic incidents 
and reduce congestion. I believe that an investment in 
technological improvements needs to occur over a broad spectrum 
not focused at one particular element of our transportation 
system.
    Technology can also prove to be an affective method in 
providing simple solutions to safety problems. The installation 
of devices such as Dynamic message signs and highway advisory 
radios are often used as a means of improving highway safety 
and need to be considered.
    The time required to implement safety improvements based on 
new technologies is usually driven by the amount of funding 
available and the regulations that establish the timeframe for 
the implementation. I believe the Federal Government can be 
instrumental in both these areas by providing the necessary 
vision for need to use technology in improving highway safety 
and the funding to implement the program.
    Regarding roadway infrastructure, first, do the easy 
solutions. A starting point is on system-wide upgrades to rural 
two-lane roads since over 50 percent of facilities occur on 
them. Shoulders ,edge drop-off fixes ,stripping, signing, 
centerline and edge rumble-stripes; guardrail, and hot spot 
fixes are some low hanging strategies. In addition GIS 
technology can be used to display sound/timely/integrated 
roadway and crash info on all roadways. There are many 
enforcement technologies which can be effectively used today 
from cameras for red-light running to speed to alcohol ignition 
interlock systems for convicted drivers. For passengers and 
drivers there are already effective and known technologies such 
as helmets for motorcycle riders and seat belts for auto and 
truck drivers. AASHTO supports a strong RD&T program funded at 
the Federal level for safety research and for the continuation 
of the efforts on VII--vehicle Infrastructure Integration-
program . . . essentiaUy smart cars and smart roads. An 
additional tool for consideration are Federal incentives (such 
a tax credits) for early adopters of safer vehicles features on 
new cars and trucks such as Adaptive Speed Control, Lane 
Departure Warning Systems, Driver Fatigue Warning Systems, or 
In-Vehicle Communication systems that allow communication with 
other vehicles and roadway elements.

    Question 4. Can we afford to build a forgiving environment 
when the highway system is as expansive as it is? Can we focus 
on those locations with the highest risk? What would it take to 
do that?
    Response. Improving our roadway system is an ongoing 
effort. Roadway design standards are continuously being 
reviewed and improved to provide safer roadways for the 
traveling public. Transportation agencies are building a more 
forgiving highway system by implementing new design standards, 
deploying intelligent transportation systems, and coordinating 
our efforts with our safety partners in other agencies.
    With improved data collection and working closely with our 
safety partners we are doing a better job of focusing our 
efforts as locations with the highest risk. Improvements to how 
we collect and manage the data I believe is the key to being 
able to effectively identify high risk locations and implement 
affective solutions that can correct the problem. Funding 
devoted to developing, implementing and maintaining Safety 
Management Systems would be instrumental toward improving our 
ability to effectively identify safety issues. I ask that 
Congress Support the further development of the NHTSA State 
Data System (SDS) to include traffic & roadway characteristics, 
and injury outcome data. Encourage all states to participate 
with their individual statewide data sources that address and 
encompass the issues of collection, quality, management and 
linkage.

    Question 5. Is it all about leadership? It sounds like the 
States that have set safety priorities and acted on them have 
had sOQ1e success. Is that true? What level of government is be 
equipped to address and would have the greatest impact on 
safety?
    Response. It is true that states that have aggressively 
addressed the subject of highway safety have had success. The 
countermeasures have varied but successful states tend to focus 
on all the roads regardless of ownership, have good data 
systems, have shared serious injury and fatality reduction 
goals among the stakeholders, have sound enforcement 
techniques, have good educational programs, and have focused 
infrastructure investments. The Federal Government can best 
serVe the cause with increased safety funding, the 
establishment of a strong and aggressive national goal (not 
individual State targets), strong national education and 
marketing help; support for greater behavioral efforts 
regarding such areas as speed/alcohol and seat belt usage and 
motorcycle helmets, and thru the promulgation of safety 
rulemaking on the vehicle fleet. Many programs have seen 
success when at the national level a focus approach and desire 
is presented to the public. As examples I would point to the 
InterState highway program and the nation's space exploration 
program. Both programs were a result of leadership at the 
Federal level that provided the vision and desire to achieve 
the goals.
    States need to have shared goals among the infrastructure/
enforcement/education/medical/emergency management partners and 
target their financial resources (both State DOT and non-DOT 
resources) to the highest pay off areas. Local governments, 
which own half the safety problem, need better understanding of 
their crash situation. They will need Federal and State 
assistance in tracking and analyzing infrastructure and crash 
conditions.

        Responses by Susan Martinovich to Additional Questions 
                         from Senator Klobuchar

    Question 1. The Federal Highway Administration has a 
regulation that generally prohibits the use of patented or 
proprietary products on Federal-aid projects, with some 
exceptions.
    AASHTO has adopted a resolution calling for the regulation 
to be revised. The resolution indicates that the regulation`. . 
. is limiting the development of new products and discouraging 
innovation.'' Could you provide the committee with some safety-
related examples of instances in which states have been 
prevented from using new products because of this regulation?
    Response. AASHTO is concerned that current Federal 
regulations in Title 23, Code of Federal Regulations Section 
635.411 (23 CFR 635.411), ``Material or product selection,'' 
and the current law in Title 23, US Code Section 112 (23 USC 
112), ``Letting of contracts,'' impose broad restrictions on 
the states' ability to utilize proprietary methods, materials, 
and equipment on Federal-aid projects and, as a result, limit 
the development of new products and discourage innovation. As a 
result, in October 2007, the AASHTO Board of Directors approved 
Policy Resolution PR-4-07, ``Use ofInnovative Products,'' to 
encourage FHWA to review existing guidelines to provide greater 
latitude in the use of new products/materials. In addition, 
AASHTO, the Associated General Contractors ofAmerica (AGC), and 
the American Road and Transportation Builders Association 
(ARTBA) issued a Joint Position Statement in 2007 that stated 
``Requests that the US Department ofTransportation review and 
consider modifying regulations to permit greater flexibility in 
use of proprietary products that are beneficial to the public 
interest, especially those that can provide safety benefits to 
the public.'' The American Traffic Safety Services Association 
(ATSSA) also supports these positions, as indicated in their 
policy on ``Innovative Roadway Safety Products.''
    Currently, a new product that is developed and placed on 
the market cannot easily be used in highway construction until 
a ``comparable'' product is produced, thus artificially 
producing ``competition'' between the two products and, the 
theory goes, lowering the cost. However, it can be argued that 
it is to other companies' benefit not to develop their own 
newer, better product to compete with the first company's 
innovative product, since the first product is effectively 
locked out of the market because it has no comparable product 
with which to ``compete.'' Thus, even though a new, innovative 
product could potentially provide significant benefits to the 
public, it cannot easily be put into use on Federal-aid 
projects.
    In addition, the inability of government agencies to 
specify a particular product which currently has no ``equal'' 
limits innovation by essentially ``lowering the bar'' for all 
products in order to artificially produce competition within 
the market. In fact, in a true ``market'' situation, the best 
products available would be specified for use in highway 
construction contracts, thus stimulating competitors to make 
improvements to their products in order to compete.
    The following are a few examples from around the country 
that illustrate the range of products that are being denied due 
to the restrictiveness of the current regulations: A sign 
sheeting material that delivers increased readability and retro 
reflectivity at all sight distances, aiding our increasingly 
older drivers. A four-cable median barrier to prevent trucks 
from crashing through and entering opposite-direction lanes 
(vs. standard three-cable systems that had not been shown to 
prevent trucks from breaking through the median). A digital 
radar controller to prevent traffic signals from turning red 
when a vehicle is detected approaching at a speed too high to 
stop. A crash attenuating device demonstrated to safely absorb 
the impact of a crash up to 70 mph (vs. the market standard 
devices' maximum of 62 mph).
    In each case, engineering judgment in the areas of safety 
and technology was trumped by an accounting policy that is 
being administered across-the-board without consideration for 
potential returns on the investment. In these cases, the State 
DOT traffic engineer requested permission to use the device, 
but the FHWA Division Office in the State denied the request, 
stating that Federal funds could not pay for the item because 
only one company manufactured such a product at that time, or 
because the improved level of performance was not justified by 
the State agency to the satisfaction of the Federal agency--
even when the state's analysis supported the product's use.
     In addition, it should be noted that the cost of these 
proprietary products in most cases is a small percentage of the 
total cost of a given project.

    Question 2. . The AASHTO resolution calls for the 
regulation to be revised such that ``. . . innovative methods, 
materials, and equipment can be deployed in a timely manner on 
the nation's highway network, based on the documented analysis 
and professional judgment of qualified State transportation 
officials. Can we protect the public interest in getting fair 
value for the taxpayers' dollar, on the one hand, while also 
giving the states greater latitude to use innovative products 
in a timely manner? In other words, is there enough 
transparency in the procurement process to fulfill our 
fiduciary responsibility while also encouraging the use of 
innovative safety products by lowering the existing Federal 
regulatory barriers?
    Response. With regard to ``protecting the public's 
interest'' while allowing flexibility in the Proprietary 
Products regulation, the resolution passed by AASHTO specifies 
a process consisting of ``documented analysis and professional 
judgment'' to determine when and where proprietary products 
would be used on any transportation project. Like Federal 
officials, State officials are also duty-bound to act in the 
public's best interest; therefore, their professional 
judgment--exercised in most cases by licensed professional 
engineers--will ensure that the public receives a final product 
that is effective and efficient.
    State agencies also have the experience, expertise, 
technology, and resources to thoroughly evaluate such products 
and determine what best suits the project's needs and the 
safety needs of the public. National programs such as AASHTO's 
National Transportation Product Evaluation Program (NTPEP) and 
the National Cooperative Highway Research Program's (NCHRP) 
IDEA program (Innovations Deserving Exploratory Analysis) are 
also readily available to assist State agencies in determining 
product worth and effectiveness.
    Currently AASHTO is developing recommended modifications to 
Title 23 to provide for better utilization of new and 
innovative products on our nation's highways. The basis for a 
proposed modification to either the current Federal regulations 
in 23 CFR 635.411 (Material or product selection) or the 
current law in 23 USC 112 (Letting of contracts) is solely to 
improve safety along our nation's roadways.

        Responses by Susan Martinovich to Additional Questions 
                          from Senator Inhofe

    Question 1. SAFETEA created two programs within the Safety 
title that set aside funds for rail grade crossings and rural 
road safety initiatives. Do you think these set aside programs 
effectively align with state's highest safety priorities? Do 
you think these set asides should be maintained, increased or 
eliminated in the next highway bill?
    Response. The set-asides should continue. The rail crossing 
funds not only aid the states in meeting a safety goal but also 
in meeting their economic goal for freight mobility. The rural 
set-aside supports the thousands of local governments on their 
80 percent of the nation's roads that are not State owned. Both 
programs have strong constituencies-AAR for Grade Crossings and 
NACE for Rural Roads.
    However, the set aside programs do not necessarily align 
with every state's priorities. Some states such as Nevada with 
its limited amount of railroad crossings may see a greater 
benefit in using the funding to address other safety issues. I 
believe that the States that are affectively using their 
funding should be given the latitude to spend the funds in 
other areas where it will provide the greatest improvements in 
roadway safety.

    Question 2. . I understand there are challenges in state-
wide data collection and differences among states roadway 
characteristics and demographics. As we prepare to write the 
next highway bill, can you give me specific improvements you 
would recommend for the HSIP program? Do you think we need to 
rethink the way the Federal Government helps states implement 
their strategic safety initiatives?
    Response. I do not believe there is a need to make drastic 
changes in the HSIP program. The HSIP should continue as a core 
highway program with increased funding equal to the increases 
to the other core programs. The synergy SAFETEA-LU established 
between the HSIP and Strategic highway Safety Plans should be 
expanded upon by having the SHSP adopt State specific fatality 
reduction goals and requiring an update to the plan at least 
once during the life of the reauthorizing legislation. However 
two areas that need adjusting are 1) Funding Flexibility--a 
State should have the ability to move safety funding between 
behavioral and infrastructure programs. For instance a State 
may have a greater need to spend more on education or 
enforcement and less on infrastructure.. The State should have 
the latitude to move the funds within the safety program to 
best fit the states safety priorities as defined in their 
Strategic Highway Safety Plan (SHSP). And 2) Eliminate the 
Transparency provision--The requirement to list 5 percent of a 
state's most hazardous locations was meant to build public 
advocacy for advancing safety. This hasn't happened.
    I believe each State has the ability to determine how best 
to implement their safety initiatives. What works for New York 
would not necessarily be affective in Nevada. The Federal 
Government should continue to be involved but allow the 
individual states the flexibility to achieve their safety 
goals.

    Question 3. AASHTO has a resolution on proprietary products 
regulation, that requests US DOT to ``review and consider 
modifying regulations to permit greater flexibility in use of 
proprietary products that are beneficial to the public 
interest, especially those than can provide safety benefits to 
the public.'' Could you explain what exactly the concerns of 
AASHTO of the existing regulation are?
    Response. AASHTO is concerned that current Federal 
regulations in Title 23, Code ofFederal Regulations Section 
635.411 (23 CFR 635.411), ``Material or product selection,'' 
and the current law in Title 23, US Code Section 112 (23 USC 
112), ``Letting of contracts,'' impose broad restrictions on 
the states' ability to utilize proprietary methods, materials, 
and equipment on Federal-aid projects and, as a result, limit 
the development of new products and discourage innovation. As a 
result, in October 2007, the AASHTO Board of Directors approved 
Policy Resolution PR-4-07, ``Use of Innovative Products,'' to 
encourage FHWA to review existing guidelines to provide greater 
latitude in the use of new products/materials. In addition, a 
Joint Position Statement was issued in 2007 byAASHTO, the 
Associated General Contractors ofAmerica (AGC), and the 
American Road and Transportation Builders Association (ARTBA) 
that ``requests that the U.S. Department of Transportation 
review and consider modifying regulations to permit greater 
flexibility in the use of proprietary products that are 
beneficial to the public interest, especially those that can 
provide safety benefits to the public.'' The American Traffic 
Safety Services Association (ATSSA) also supports these 
positions, as indicated in their policy on ``Innovative Roadway 
Safety Products.''
    As currently regulated in 23 CFR Section 635.411(a), 
``Material or product selection,'' proprietary products are 
only allowed on Federal-aid construction contracts under 
specific circumstances. These circumstances include when:

     the item can be competitively bid against similar, 
unpatented items;
     the item is essential for synchronization with existing 
facilities; or
     the item used for experimental purposes on short sections 
or road.

    While these restrictions appear to ensure that public money 
is used wisely and to its best cost/benefit, there are 
situations where patented products have been demonstrated to 
significantly improve the condition or safety of a facility, 
but the DOTs' hands are tied when trying to use these products 
because of ''low-bid'' requirements. 23 USC 112 requires each 
State to conduct competitive bidding of all construction 
projects with the final contract being awarded to the lowest 
responsive bid. This process ensures a low-cost solution to a 
given problem, but the ``best deal'' for the public is not 
always obtained by getting the cheapest product available.
    In addition, the restrictions serve to limit innovation, 
since a similar, ``equally suitable'' item must be developed 
(for competitive bidding purposes) before a State DOTcan easily 
justify the use of the proprietary item. Federal funds cannot 
be obligated toward a product which is considered proprietary 
unless an approved equal of that product is also on the market. 
The potential ``proprietary product'' can be introduced to the 
DOT's evaluation committee in hopes of becoming an approved 
product for that state, but until a competitor with a 
comparable product reaches the market, the usability of the 
proprietary product is delayed indefinitely.
    Currently AASHTO is developing recommended modifications to 
Title 23 to provide for better utilization of new and 
innovative products on our nation's highways. The basis for the 
proposed modification to either the current Federal regulations 
in 23 CFR 635.411 (Material or product selection) or the 
current law in 23 USC 112 (Letting of contracts) is solely to 
improve safety along our nation's roadways.

    Question 4. Competitive bid requirements are used to ensure 
that the public gets the best deal. If the proprietary rule is 
modified to allow greater flexibility, what safeguards are in 
place at either the State or Federal level to ensure that 
taxpayer dollars are not going toward ``gold plated'' projects. 
In other words is there room in the existing rules to allow 
greater flexibility and still protect the public interest for 
the best deal?
    Response. Regarding ``competitive bid requirements,'' the 
``best deal'' for the public is not always obtained by getting 
the cheapest product available. Highway agencies are finding 
that ``low bid'' is not necessarily the best method for 
obtaining the best value for our taxpayers' money. In many 
cases, we end up with a product that meets the bare minimum 
requirements found in the contract. In the past decade, highway 
construction contracts have been moving more and more toward a 
philosophy of getting the ``best value for the money'' as 
opposed to the ``cheapest project possible,'' since the latter 
may not last as long (requiring earlier replacement) or wear as 
well (requiring more frequent and more expensive maintenance) 
than a slightly more expensive product. Sometimes, paying a 
little bit more up front and getting a better overall product--
one that will last longer, or have less maintenance, or be 
safer--is in the best interest of the traveling public.
    To allay concerns about ``gold plated projects,'' the State 
DOTs do not have the funding to do ``Cadillac'' projects, let 
alone gold-plated projects. With recent substantial increases 
in construction costs, the DOTs are struggling to deliver the 
programs they promised the public just a few years back. And 
while the Federal Government certainly has important oversight 
responsibilities on Federal-aid projects, it must be stressed 
that we are all on the same team--the States have the same 
responsibilities to citizens to ``do the right thing'' and 
spend the taxpayers' money in the most prudent, efficient, and 
effective way possible.
    While the current regulations may have been needed two or 
three decades ago, State agencies now have the experience, 
expertise, technology, and resources to thoroughly evaluate 
such products and determine what best suits the project's needs 
and the safety needs of the public. National programs such as 
AASHTO's National Transportation Product Evaluation Program 
(NTPEP) and the National Cooperative Highway Research Program's 
(NCHRP) IDEA program (Innovations Deserving Exploratory 
Analysis) are also readily available to assist State agencies 
in determining product worth and effectiveness. Giving more 
flexibility to state-level government agencies does not take 
away the responsibility to protect the public interest--rather, 
it puts the decision on what products to use and where to use 
them in the hands of those who are most knowledgeable about a 
given project, and most knowledgeable about the benefits that 
could be obtained through its implementation.
    AASHTO believes that the role of the Federal Government is 
to oversee the processes used to achieve an outcome--Le., goal-
setting, outcome--oriented oversight--not to develop 
prescriptive requirements delineating how decisions should be 
made. The current regulations are too prescriptive and delay 
the process of getting new products on the street where they 
can do some good. And, as noted in testimony presented before 
the Senate EPW Committee by the Federal Highway Administration, 
based a recent query of their Division Offices they have not 
identified a problem with the existing regulations. However, I 
believe that most requests made by the State DOTs are not 
specifically denied--the States are told to use State funds for 
that particular item or withdraw the item from the contract, 
and these interactions are not tracked and reported by FHWA by 
Mr. Jeffrey Paniati, Executive Director of the Federal Highway 
Administration, FWHA has no intention of changing its 
interpretation of the law--or their regulations--without 
direction from Congress on this issue. Thus, we hold no hope 
that additional needed flexibility could ever be obtained 
through the existing regulations. I believe that in order to 
give the State transportation departments the greatest 
flexibility to deliver an efficient and effective highway 
program, change is required.

    Question 5. Do you have any examples in your State where 
this regulation has prevented your State or made it difficult 
for your State to use proprietary products designed to prevent 
injuries or save lives?
    Response. The challenges that Nevada has had is in regards 
to testing or using a proprietary product on a project involve 
those where a local agency will eventually maintain the 
improvement. We enter into many partnerships to maximize our 
funding. Local agencies are not tied to the Federal rules when 
strictly using their own funding, or on segments of their 
system where they have incorporated a product they have found 
to be beneficial, only to have this ability to utilize this 
product on a joint funded cooperative project limited or 
denied. This has a big impact on long-term maintenance 
abilities, where multiple types of parts must be stockpiled for 
many different components.

    Senator Lautenberg. Thank you very much.
    Ms. Gillan.

 STATEMENT OF JACQUELINE S. GILLAN, VICE PRESIDENT, ADVOCATES 
                  FOR HIGHWAY AND AUTO SAFETY

    Ms. Gillan. Good morning, Chairman Lautenberg and Senator 
Inhofe. I appreciate the opportunity to testify this morning on 
such an important topic.
    The number of highway deaths and injuries has essentially 
flatlined. Over the past decade, over 41,000 people are killed 
and 2.5 million more are injured in motor vehicle crashes at an 
economic cost exceeding $230 billion. SAFETEA-LU will result in 
the largest surface transportation investment in our Nation's 
history. Yet during the authorization timeframe, it is unlikely 
we will see significant reductions in motor vehicle crash 
deaths, injuries or public health costs.
    As this Committee begins deliberations on the next 
reauthorization bill, let me briefly recommend some of the key 
areas where real safety gains can be achieved. First, there is 
an urgent need for a primary enforcement seat belt law in every 
State. Today, only 26 States have this law. Primary enforcement 
seat belt laws save lives and result in higher usage rates.
    SAFETEA-LU provided more than $500 million in incentive 
grant money to encourage States to pass primary enforcement 
seat belt laws. How are we doing? In 2006, three States enacted 
a law. In 2007, only one State passed a law. This year, not a 
single State will adopt a primary enforcement seat belt law. At 
this glacial pace, it could be 2032 or later before every State 
has this essential law.
    In the area of impaired driving, we are not making 
sufficient progress. In 2006, 13,470 people were killed in 
alcohol-impaired crashes, about the same number reported in 
1996. Part of the problem is the fact that many States still 
lack some of the most fundamental impaired driving laws.
    One of the major factors contributing to overall highway 
fatalities is the dramatic increase in motorcycle deaths in the 
last 10 years. Since 1997, motorcycle deaths have more than 
doubled. Research conclusively and convincingly shows that all-
rider helmet laws save lives and save taxpayer dollars. 
However, while motorcycle deaths are climbing, life-saving all-
rider helmet laws are under attack in State legislatures. Only 
20 States today have all-rider helmet laws; yet 12 States 
considered repealing those laws just this year.
    The increase in teen drivers on our roads is also a safety 
problem with a sensible solution. In 2006, about 8,000 deaths 
involved young drivers. While many States have a few of the 
essential components of an optimal graduated driver's licensing 
program for new teen drivers, only Delaware has all five 
recommended by Advocates. As a result, there is a patchwork 
quilt of teen driving laws across the Nation, similar to the 
blood borders that existed in the 1970's and 1980's when States 
had different minimum drinking ages for alcohol. Congress 
solved that problem with enactment of the 21 drinking age that 
you sponsored, Senator Lautenberg. That law gave States 3 years 
to adopt a uniform drinking age or be penalized Federal Aid 
Highway funds.
    What happened? As a result, every State complied, no State 
lost a single dollar of Highway funds. And over 25,000 lives 
have been saved, a remarkable achievement. It is now time for 
Congress to step in to protect every teen in every State 
through the uniform adoption of optimal GDL laws.
    There is also a pressing need to address the rapidly 
increasing population of older drivers. Unfortunately, not 
enough attention is being given by FHWA or NHTSA to adopting 
counter-measures in our highway and vehicle designs to address 
the needs of older drivers.
    Another safety area DOT has failed to show adequate 
progress is in reducing truck crash deaths. Studies show that 
as big trucks get heavier and longer, they have longer stopping 
distances, are more difficult to maneuver and have an increased 
risk of rollover. The destruction and damage to bridges and 
highways caused by overweight trucks jeopardizes safety for 
everyone.
    One of the most successful truck safety laws ever enacted 
by Congress was the 1991 freeze on longer combination vehicles. 
Unfortunately, trucking and shipping interests are already 
prodding Congress to increase Federal truck size and weight 
laws, relax the LCV freeze and give special weight exemptions 
to select States like Maine and Vermont. Public opinion polls 
show that Americans are strongly opposed to longer and heavier 
trucks. They believe that bigger trucks are more dangerous and 
they are absolutely right.
    Now let me turn to the issue of speed. In 2006, speed was a 
factor in about a third of all fatalities. A 1984 study by the 
National Academy of Sciences documented that the national 
maximum speed limit saved both fuel and lives. Conditions may 
once again be ripe for Congress to reconsider a national speed 
limit law and Advocates supports that strategy, in order to 
save lives and protect the Nation.
    Let me conclude by saying that many of the safety 
priorities outlined in my statement this morning and in my 
formal testimony can be realized by expending minimal Federal 
dollars while achieving maximum gains in saving lives. There 
really are no acceptable excuses for delaying any longer the 
adoption of proven, cost-effective safety measures that will 
significantly reduce our Nation's death and injury toll.
    Thank you very much.
    [The prepared statement of Ms. Gillan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
       Responses by Jacqueline S. Gillan to Additional Questions 
                           from Senator Boxer

    Question 1a. Do you think that lower speed limits would 
make the roads safer?
    Response. There is no question that lower speed limits 
would make road travel safer for both motorists and the 
operators of commercial motor vehicles. Lower speed limits, 
when enforced, result in drivers having more time to react to 
hazards requiring braking and evasive maneuvers, as well as 
more time to detect, understand, and appropriately react to 
guidance provided by signs, pavement markings, and other 
traffic control devices.
    Recent studies have shown that reduced crash rates and 
lower crash severity are benefits of lower speeds on highways 
and streets, and that vehicle speed has a causal relationship 
to crash rates and severity.
    Question 1b. Do you think that a national speed limit would 
be effective? The National Maximum Speed Limit (NMSL) enacted 
in 1974 achieved lower motor vehicle operating speeds that 
almost immediately translated into a sustained, reduced rate of 
collisions with fewer deaths and fewer severe injuries. These 
facts have been verified repeatedly by several studies, 
including studies conducted through the National Academy of 
Sciences and by independent research organizations, such as the 
Insurance Institute for Highway Safety. It is documented that 
tens of thousands of lives were saved during the era of the 
NMSL, and that additional thousands of lives could be saved 
each year by a national speed limit that would reduce highway-
operating speeds.

    Question 2a. What is the most important thing that can be 
done to improve road safety?
    Response. In terms of immediate actions that would have a 
large, measurable effect on saving lives and reducing crash 
severity and associated injuries, adoption of a national 
Primary Seat Belt Use Law requirement would immediately result 
in saving additional lives in the 24 states that do not 
currently permit primary enforcement of their seat belt use 
laws. Also, enactment of a national requirement for all-rider 
motorcycle helmet-use laws in all states, uniform Graduated 
Driver Licensing (GDL) laws for novice drivers and the use of a 
breathalyzer interlock for drivers previously convicted either 
of driving while intoxicated (DWI) or driving under the 
influence (DUI), are measures that would have a strong and 
immediate positive effect to improving highway safety.
    In addition, each year, about 5,000 people die in truck 
crashes and more than 100,000 are injured. Congress must not 
weaken or repeal the 1995 freeze on longer combination vehicles 
or increase truck weights. Also, nationwide reductions in 
posted speed limits and vigorous enforcement of those limits 
would result in many lives saved on our nation's highways.

    Question 2b. Is there a Federal element to this, or is it 
purely State or local?
    Response. Improving traffic safety to save lives, prevent 
injuries and reduce motor vehicle crashes and costs requires 
concerted efforts mounted at the Federal, state, and local 
levels. However, the Federal Government must take the lead to 
ensure that proven safety countermeasures are uniform and 
enacted throughout the Nation to protect every person in every 
state. This is similar to the Federal Government's leadership 
role in aviation safety.
    Motor vehicle crashes are the leading cause of death and 
injury for all Americans ages 3 to 33. Since the loss of more 
than 41,000 Americans each year in motor vehicle crashes is a 
national public health and safety crisis, Federal leadership is 
essential. While local road conditions and terrain may vary to 
some extent, unsafe behaviors and the laws of physics do not 
change from State to state. National minimum safety 
requirements will ensure that the public in each State receives 
the benefit of proven safety interventions. This includes seat 
belt use and motorcycle helmet use, maximum speed limits, 
strong measures to prevent impaired driving, graduated driver 
licensing for novice drivers, and other safety countermeasures 
including the coordination of Federal standards for the designs 
of highways and of traffic engineering measures that need 
national coordination and integrated implementation at all 
levels of government.

    Question 3a. What is the real potential for technology to 
make a real difference? For example, is the best potential at 
the roadside or in the car? Or are lower-tech options just as 
important in the short run?
    Response. Many technologies are already playing a critical 
role in improving vehicle, roadway and driver safety. 
Technologies that have a direct effect on the frequency and 
severity of crashes are evolving at a rapid pace. These include 
in-vehicle safety systems that both help to prevent crashes 
(crash avoidance technologies) such as electronic stability 
control and imminent collision notification systems (``smart'' 
cruise control, sensors and cameras for avoiding impacts with 
other vehicles and with children in backing incidents). 
Technology is also essential to reducing occupant injuries and 
deaths through the use of crash worthiness improvements such as 
safer active and passive restraint systems and automated 
enforcement technologies at the roadside such as red light 
cameras and remote speed limit enforcement. Furthermore, if a 
crash does occur, the increasing use of remote crash 
notification systems installed in motor vehicles result in more 
rapid emergency medical responses to injured occupants. 
Technology, such as interlock systems, is also helping to keep 
impaired drivers off our roads. These in-vehicle technologies 
currently provide the best safety improvements and are making a 
real difference.
    Other technologies are helping to advance motor vehicle 
safety, such as remote, transponded real-time information to 
roadside inspectors on the critical safety condition of 
commercial motor vehicles. Still other technologies are 
transforming the highway from an essentially static operating 
environment to a dynamic, changing environment comprising real-
time changes in notifying drivers of changed operating 
conditions, including speed limits.
    Advocates believes that so-called ``low tech'' solutions 
can be found in passage of essential, proven, lifesaving laws 
that continue to languish year after year in State legislatures 
despite strong and broad public support.

    Question 3b. How long would it take for those technologies 
to be in place? Should the Federal Government be doing 
something to accelerate development of adoption?
    Response. For ``low tech'' solutions such as requiring 
primary enforcement of seat belt use laws, uniform GDL laws or 
motorcycle helmet use in all states, enactment of a national 
law would lead to adoption of those laws in nearly all 
jurisdictions within a few years. Other ``low tech'' highway-
related safety features, including road safety hardware such as 
barriers and crash cushions, and certain traffic control 
devices, already qualify for Federal assistance to advance the 
implementation of highway-related safety features. Federal 
minimum standards requiring the use of such items in highway 
construction and rehabilitation projects would expedite the 
installation of these safety features.
    Technologies, such as crash avoidance systems, on-board 
electronic recorders monitoring commercial driver hours of 
service compliance, and injury-prevention countermeasures like 
automatic reversing power windows and advanced occupant 
restraint systems, among many that could be mentioned, are all 
too often not required as standard equipment by the Federal 
safety agencies such as the National Highway Traffic Safety 
Administration (NHTSA) and the Federal Motor Carrier Safety 
Administration (FMCSA). As a result, it has fallen to Congress 
to require these agencies to issue rules requiring motor 
vehicle manufacturers and motor carriers to install advanced 
safety technologies. In general, safety technologies are 
adopted in an uneven manner, with implementation usually the 
result of Federal legislative mandates after years of 
unacceptable delay.

    Question 4a. How would you advise us as we prepare for the 
next reauthorization to improve the highway programs so that 
safety is seriously addressed?
    Response. The most effective approach for ensuring 
improvements in highway safety is for Congress to set the 
agenda by requiring in legislation that certain aspects of 
motor vehicle and highway safety be required either in State 
law, or through Federal regulation, with specific deadlines for 
action. First, crucial aspects of traffic safety that are 
governed by State law, but have not been addressed in all 
states, would be improved by requiring states to adopt proven 
safety countermeasures, such as primary enforcement of seat 
belt use laws, GDL laws and all-rider motorcycle helmet laws. 
Congress will directly and immediately improve public safety in 
these areas. Second, with regard to Federal regulations for 
passenger vehicles, Congress needs to again set the agenda for 
NHTSA by requiring the issuance of rules to address specific 
safety problems. In recent years, this approach has been most 
effective in getting the safety agency to establish reasonable 
performance standards based on using both ``low tech'' 
solutions and available technology. This requires adoption of 
provisions directing the Secretary of Transportation (i.e. 
NHTSA) to issue final rules to address serious safety problems 
and to amend or establish safety performance standards that 
include the safest countermeasures and safety technologies 
available. Similarly, with respect to commercial motor vehicle 
safety, Congress should, in the Motor Carrier Safety title, 
direct the Secretary of Transportation (i.e., FMCSA) to issue a 
series of specific rules that improve longstanding problems in 
commercial motor vehicle safety. Without congressional action, 
proven safety countermeasures for passenger and commercial 
vehicle safety will continue to languish due to lack of agency 
initiative.
    As regards Federal-aid highway authorization legislation, 
over the past 35 years Congress and the Federal Highway 
Administration (FHWA) have increasingly removed the direct 
Federal approval and oversight role for highway projects. 
Federal standards were changed to mere guidelines for federally 
assisted highway work, including safety features and basic 
geometric and cross-section designs. These guidelines are 
authored by the states as consensus guidelines that are simply 
accepted without change by FHWA for inclusion in the Code of 
Federal Regulations as the basis for federally assisted highway 
work. These guidelines have wide boundaries for their design 
values and generous latitude is built into the narrative of 
safety and design guides so that uneven results in safety are 
produced from one State to another.
    Legislated funding categories have become increasingly 
fluid, allowing almost free exchange of money between major 
funding provisions, or supplying Federal funds as generally 
unrestricted block grants. Overall, most funds are provided 
with few legislated requirements.
    Furthermore, although State departments of transportation 
should be able to rely on their expertise to build, repair, and 
maintain safe roads and bridges, some states do not 
sufficiently address highway safety needs because funds are 
awarded with few limitations in both legislation and subsequent 
allocation by FHWA. Unless Congress directs that specific 
highway safety countermeasures be implemented in a time certain 
and provides dedicated funds for that purpose, with appropriate 
Federal agency approval and oversight of projects, the national 
highway safety profile will remain uneven and unbalanced, with 
some states more aggressively implementing major highway safety 
improvements than others. For example, Federal funds for 
resurfacing and restoring highway pavement are provided by 
Congress and allocated through FHWA without any Federal 
standards on pavement skid resistance governing the safety of 
pavement surfaces, especially for wet weather travel.

    Question 4b. What kind of incentives can we offer if we 
were to build them into the HSIP program, for example?
    At this time, Advocates does not have a specific proposal 
but will provide that to the Committee at a later date.

    Question 5a. What is the data telling you about the 
effectiveness of various strategies, both infrastructure and 
behavioral?
    Response. The data tells us that while there are effective 
countermeasures for reducing highway deaths and injuries such 
as laws to increase seat belt and motorcycle helmet use, reduce 
drunk driving and keep new teen drivers safe, piecemeal 
adoption of such countermeasures by the states has slowed 
progress and inhibited the application of these solutions 
nationwide. The only way to achieve optimal safety improvement 
and to emphasize the national nature of this critical public 
health and safety epidemic is to have uniform, national laws 
that provide all Americans with the same basic level of safety. 
Government and independent research convincingly show the 
benefits to public health and safety of adopting these safety 
strategies.
    There is a strong argument in support of appropriate 
countermeasures for infrastructure safety that are achieved 
through good design practices. Hundreds of studies have been 
published over the last few decades demonstrating that 
providing increased decision and stopping sight distance on 
highways; wider travel lanes; appropriately wide medians 
separating opposing streams of traffic; wide shoulders that are 
hard-surfaced; avoidance of edge-of-pavement drop offs; clear 
roadsides emptied of fixed object hazards; and clear, bright 
signs, pavement markings, and other traffic control devices 
that warn and guide motorists while fulfilling their 
expectations on what they will encounter on the road ahead are 
without question the fundamental road design strategies that 
prevent crashes and save lives. These are now taken for 
granted, but several decades ago they were almost uniformly 
absent from America's roads and streets. Increasing the quality 
of the alignment and cross-section designs of highways, 
increasing pavement skid resistance, providing protection 
against colliding with dangerous roadside features, and 
appropriately guiding the motorist from moment-to-moment in the 
numerous decisions that must be made while driving are the 
foundation of good infrastructure design.
    In addition, infrastructure safety also requires that 
bridges must be inspected often with sophisticated tools and 
monitored for fatigue and deterioration due to environmental 
conditions and the disproportionate impacts of large, heavy 
trucks, to ensure that catastrophic bridge failures do not 
occur. Better signalization and pedestrian crossing designs 
ensure lower rates of pedestrian collisions that result in 
deaths and injuries. The data supporting the safety benefits of 
improved highway and traffic engineering designs both for 
motorists, bicyclists and for those walking have been collected 
and used to justify increased safety designs for many years. 
Much of these data over the years has been collected by State 
highway departments and by FHWA, as well as by private 
researchers in universities and think tanks.

    Question 5b. How can you tell what combination of features 
should be considered an effective plan?
    Response. Traffic safety countermeasures have been tried, 
tested and developed over many years to improve safety in 
various areas of occupant protection, commercial vehicles and 
highway design. The best currently available features to 
improve a given safety problem are known and can be instituted 
with minimal lead-time. What has generally been lacking is not 
the safety features or combinations of features that will 
improve safety, but the leadership to institute some or all of 
the known and available countermeasures.
    Reductions in highway deaths and injuries require a multi-
faceted approach at the Federal level addressing vehicle 
safety, driving behavioral programs and roadway design. 
Advocates supports safety initiatives in all three areas in the 
reauthorization of SAFETEA-LU. An effective plan combines 
sophisticated road and bridge design principles, optimal 
vehicle safety, and strong behavioral programs to increase 
safety belt and motorcycle helmet use, deter drunk driving, 
reduce young driver crashes by appropriately delaying the age 
of full licensure, monitoring the driving and working hours of 
commercial drivers, and enforcement of traffic laws and 
regulations, including speed limits and traffic control devices 
requiring compliance, such as signalized and stop sign 
controlled intersections.

    Senator Lautenberg. Thank you very much.
    Mr. Johns, welcome.

      STATEMENT OF ROBERT C. JOHNS, DIRECTOR, CENTER FOR 
                     TRANSPORTATION STUDIES

    Mr. Johns. Chairman Lautenberg, Ranking Member Inhofe, I am 
honored to be invited to testify on this important topic of 
traffic safety.
    I am going to focus on performance measures and 
performance-driven programs. The University of Minnesota is a 
large land-grant research university. Our center is one of the 
largest transportation centers in the Country involving many 
disciplines to look at a variety of transportation-related 
topics. We have a long history of research in traffic safety.
    We address it from several perspectives: engineering, 
technology, human factors, planning and policy research. Our 
research creates innovative strategies to improve traffic 
safety. We also measure the performance impacts of these 
strategies and also develop new ways of measuring performance.
    We need innovations in traffic safety because the overall 
performance measures in the U.S., as has been mentioned, total 
fatalities and fatalities per vehicle mile driven, have been at 
a plateau for the past 10 to 15 years. Over 40,000 people die 
on our road systems each year. This is a human tragedy 
equivalent to two large airplanes crashing every week, killing 
everyone on board.
    What is particularly frustrating is that we are not 
improving and other countries are. We used to be the world 
leader in traffic safety. We have fallen from that leadership 
role.
    European countries with early leadership, like Sweden with 
its Vision Zero program, Australia, Asian countries have all 
achieved impressive results. They have done this by measuring 
traffic safety performance, creating a vision of what they want 
the performance to be and setting targets to reach that vision. 
Their investments are judged by how well they reach these 
targets and their institutions are held accountable and 
provided incentives for advancing traffic safety performance.
    In the U.S., we have had great success in performance-
driven programs in our private sector. There is an opportunity 
to increase performance measurement and accountability in 
Federal transportation programs as called for by the National 
Surface Transportation Policy and Revenue Study Commission. 
Fortunately, in addition to other countries, we have innovative 
States that are demonstrating how this can be done in traffic 
safety. The States of Washington, Michigan, Missouri, Utah and 
others have developed visions, performance measurement systems, 
and investment programs to meet performance goals.
    In Minnesota, a coalition of groups led by the Minnesota 
Department of Transportation and the Department of Public 
Safety, with support from our Center for Transportation 
Studies, has established a Toward Zero Deaths program. A 
variety of groups are working under this umbrella vision, led 
by central leadership that focuses on investments with high 
performance payoffs. Traffic fatalities in Minnesota dropped 
from 657 in 2002 to 494 in 2006.
    The short-term strategies are complemented by long-term 
university research programs led by our Intelligent 
Transportation Systems Institute and our Center for Excellence 
in Rural Safety and by public education programs, such as 
annual stakeholder conferences and events. We believe the 
Toward Zero Deaths program in Minnesota is beginning to change 
the traffic safety culture in Minnesota, which is what Sweden 
and others have been so successful at.
    So what are the implications for the Federal Government? 
Here are five suggestions. One, Federal funding for traffic 
safety should be based on States meeting performance standards 
with incentives provided for innovative programs and for 
innovative measurement systems. Two, a variety of strategies 
and integrated approaches should be required, such as the 
traditional four Es, engineering, enforcement, education and 
emergency management, combined with research, outreach, pilot 
programs with the private sector, media relations and 
partnerships involving elected officials and advocacy groups.
    Three, there should be Federal leadership in compiling and 
sharing best practices by States and other countries in traffic 
safety. Information resources on a variety of traffic safety 
topics should be widely accessible using innovative mechanisms 
such as the transportation knowledge networks being developed 
by AASHTO. In addition to the research programs mentioned by 
Susan Martinovich, Federal sponsorship of university programs 
for basic research should increase, enhancing our knowledge 
about the complex interactions of human behavior, vehicle 
performance and infrastructure design.
    No. 5, Federal programs should require and fund traffic 
safety data collection systems and statistical analyses. These 
are the foundations of data-driven performance measurement 
systems.
    In conclusion, we have an opportunity for Federal programs 
to use performance-based approaches to break through the 
plateau of the past decade. Other countries and innovative 
States are demonstrating how it can be done. We need the 
commitment of Congress and the Administration to move us in 
these directions.
    Thank you for this opportunity to testify. I would be glad 
to answer questions.
    [The prepared statement of Mr. Johns follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
         Responses by Robert C. Johns to Additional Questions 
                           from Senator Boxer

    Question 1a. Do you think that lower speed limits would 
make the roads safer?
    Response. Lower speeds limits will not necessarily make 
roads safer. Three key factors determine whether speed limits 
improve safety: 1) how reasonable the speed limit seems to the 
majority of drivers; 2) the relationship of the speed limit to 
the design of the roadway; and 3) the level of enforcement 
available to ensure people are driving at the speed limit. If a 
lower posted speed limit is reasonable to drivers, is 
appropriate for the roadway design, and is enforced, then a 
lower limit is likely to make a road safer, especially in 
reducing the severity of crashes. (See Technical Note #1)

    Question 1b. Do you think that a national speed limit would 
be effective?
    Response. A national speed limit would only be effective if 
there were dramatic changes in federally funded programs. 
First, Federal funds would be needed for states to ensure that 
the types of highways that fall under the national speed limit 
all meet national roadway design standards. Second, Federal 
funds would be needed for states to provide dedicated speed 
enforcement. Even if these two conditions were met, there still 
may be uncertainty about its effectiveness, since a reasonable 
speed in one State might differ dramatically from what is 
reasonable in another state. (See Technical Note #1)

    Question 2a. What is the most important thing that can be 
done to improve road safety?
    Response. Many states in their safety plans focus on the 
four ``E's:'' engineering, enforcement, education, and 
emergency management. While an integrated and well-funded 
approach using strategies in these categories remains 
important, increased attention is being given to the human 
behavior component, which includes seatbelt usage, teen 
driving, impaired driving, and helmet use. A strategic priority 
focused on changing behavior, as shown in European initiatives, 
can dramatically improve road safety. In addition, there is 
growing awareness that our culture, which accepts over 40,000 
traffic fatalities each year, needs to be changed. Public 
involvement and education programs, combined with publicized 
data and information, are beginning to be used by states and 
organizations to help reach safety visions and targets. A 
changed safety culture has the potential to lead elected 
leaders to be more supportive of policies (such as a primary 
seat belt law) that are proven in reducing fatalities and 
severe injuries. (See Technical Note #2)

    Question 2b. Is there a Federal element to this, or is it 
purely State or local?
    Response. The Federal Government plays a critical role in 
sponsoring research and disseminating knowledge to states and 
localities on strategies to improve road safety. Federal 
funding initiatives should require that states set traffic 
safety goals and develop plans using promising approaches. They 
also should fund programs that ensure data are being collected 
to allow measurement of how well states are performing in road 
safety. The Federal Government has great potential in providing 
overall leadership that improves the national safety culture. 
Since many traffic fatalities and injuries occur on local 
roads, Federal initiatives must allow states flexibility and 
offer streamlined procedures for local governments to take 
advantage of funding and new approaches. (See Technical Note 
#2)

    Question 3. What is the real potential for technology to 
make a real difference? For example, is the best potential at 
the roadside or in the car? Or are lower-tech options just as 
important in the short run? How long would it take for those 
technologies to be in place? Should the Federal Government be 
doing something to accelerate development or adoption?
    Response. Technology has played and will continue to play 
an important role in improving traffic safety. New vehicles now 
include a variety of safety enhancements, from anti-lock 
braking to automatic airbag deployments. A new generation of 
technologies offers even greater possibilities. In the private 
sector, developments such as OnStar demonstrate the ability to 
link in-vehicle information (i.e., automatic crash 
notification) to technology-enabled service response. The 
Federal Government has a critical role to play in continuing to 
sponsor research and tests for a variety of Intelligent 
Transportation Systems technologies; this research contains the 
seeds for both in-vehicle and systems improvements. In 
addition, implementation of existing low-cost technologies--
such as improved pavement marking and signing--should be 
encouraged and accelerated, with flexibility in the uses of 
funding. (See Technical Note #3)

    Question 4a. What helps states and others achieve better 
results?
    Response. Agencies are helped in making efficient and 
effective safety decisions by being able to measure the extent 
of the problem and measure the impacts of improvements, on all 
roads in the state. Assistance in data collection and 
management would help states and others to develop and enhance 
data-driven decisionmaking approaches. In addition, more 
flexibility in the use of Federal safety funding, at multiple 
jurisdictional levels, would allow states and others to target 
funds on improvements that have the greatest positive impacts, 
as determined by measurement systems. (See Technical Note #4)

    Question 4b. You've discussed performance measures. There's 
an old adage: ``What gets measured, gets done.'' Do you think 
that this applies here?
    Response. Yes. Measuring safety performance leads to 
improved safety programs. It leads to effective data collection 
systems and the setting of performance goals. It also can be a 
powerful indicator of how well a State or nation is progressing 
toward a safety vision. Measurement requirements, however, must 
acknowledge that funding and guidelines for data systems are 
needed. There is also a need for research on the impacts of 
different types of safety improvements and strategies, many of 
which are not well quantified. (See Technical Note #4)

         Response by Robert C. Johns to an Additional Question 
                          from Senator Inhofe

    Question. You give many examples of state-run performance-
driven initiatives in your testimony. I am interested in 
including Federal safety-related performance standards in the 
next highway bill. What metrics do you think are most 
appropriate to compare performance? Is it too simplistic to 
simply use absolute changes in annual fatalities and injuries? 
Or do the unique challenges facing each State make it 
impossible to have a national standard?
    Response. It is too simplistic to only use absolute 
changes, and it would be very difficult to have a national 
standard. However, there are significant benefits in having the 
Federal Government require safety-related performance-driven 
initiatives from states. A combination of measures is needed 
for each state, with flexibility to match State and local 
capabilities. Targets based on those measures should be 
required, and progress should be documented in meeting those 
targets. Measuring a State against its own progress is more 
valuable and meaningful than measurements that compare states. 
Funding should be available to those states that demonstrate a 
need for help and to those that are pushing for higher safety 
achievement. Success should not be penalized--high performing 
states should move to address the more difficult safety 
problems. States that have not established performance-based 
programs should receive some form of penalty. (See Technical 
Note #4)

                            Technical Notes

    Technical Note #1:
    In 1998, the Transportation Research Board published 
Special Report 254: Review of Current Practice for Setting and 
Enforcing Speed Limits (National Academy Press, Washington 
D.C.). It discusses the effects of reasonable versus 
unreasonable speed limits. Unreasonable speed limits, unless 
strictly enforced, will often cause a wide differential in 
drivers' speeds, with some people obeying the speed limit and 
others exceeding it. Research has shown that the differential 
in speeds traveled contributes to crashes, more so than a 
higher speed at which the majority of travelers are driving.
    Many State DOTs conduct traffic studies on roadways when 
they establish or change the speed limit. They then set the 
speed limit at the speed at which 85 percent of the drivers are 
currently driving at or below, as recommended in the 
Transportation Research Board report. This is determined to be 
a reasonable speed. There are likely to be fewer crashes when 
the majority of drivers feel the speed limit is reasonable and 
do not deviate widely from it. This is demonstrated by our 
interstates--our highest speed roadways--which have some of the 
lowest crash rates because there is not a wide deviation.
    The design of the roadway contributes to what a driver 
thinks is a reasonable speed. Drivers will adjust their speeds 
based on what they perceive to be safe or unsafe. Changing the 
speed limit for changing conditions, such as sharp curves, is 
important to reinforce the need to adapt to a new environment. 
In recent years, traffic calming techniques--design features 
that slow traffic--have shown promise in improving safety on 
local roadways, more so than lower speed limits on streets that 
the public feels can be reasonably traveled at a higher speed.
    Enforcement can help ``train'' drivers to slow down to a 
lower speed limit, even at a speed limit that is deemed 
unreasonable by drivers. But if funding is not available for 
extensive enforcement given other public safety priorities--
which is the case in many states--then a lower speed limit that 
is only sporadically enforced can have a long-term negative 
effect. Some researchers have theorized that the former 
national speed limit of 55 miles per hour on interstates, not 
deemed reasonable by many drivers and only sporadically 
enforced, may have led to an entire generation of drivers (and 
now their children) believing that driving above the speed 
limit is acceptable. Enforcement is undergoing change, 
particularly in European countries, with the implementation of 
automatic enforcement systems through cameras and detection 
systems. These systems are improving traffic safety, but they 
have triggered concerns about individual rights and privacy in 
the U.S.

    Technical Note #2:
    Human behavior and/or choices (e.g., seat belt use, helmet 
use, poor decisionmaking, speed choice) can be related to a 
large majority of crashes and roadway fatalities. Education, 
enforcement, and engineering measures can be used to change one 
or more of these choices. Most transportation officials also 
acknowledge, however, that large reductions in motor vehicle 
fatalities may require a change in the safety culture--in other 
words, a change in the thinking of the driver, implementing 
agency, and legislator.
    In terms of policy, it is known, for example, that the 
introduction of primary seat belt and helmet use legislation 
can have dramatic impacts on roadway fatalities. The safety 
culture may be part of the reason this legislation has not be 
enacted or reinstated.
    At the University of Minnesota's Center for Excellence in 
Rural Safety (CERS), we have been assessing various strategies 
that can make a difference in rural safety, where in fact most 
highway facilities occur. Our work has looked at behavioral, 
technological, policy, and citizen-engagement approaches. A 
goal is to help change the safety culture through education of 
policymakers and the public.
    One innovative approach we have taken is to make the public 
more aware of potential safety hazards, allowing travelers to 
can take a more active role in ensuring their own safety. CERS 
recently launched SafeRoadMaps.org, an interactive website that 
allows the public to zoom into their own travel routes to 
determine if there have been any recent traffic fatalities. In 
it first week of operation, SafeRoadMaps.org received over 
three million ``hits,'' suggesting there is a strong consumer 
interest for better traffic safety information.
    There are also technologies that have known impacts on 
safety, many of which are being researched at the Intelligent 
Transportation Systems Institute at the University of 
Minnesota. (Our research is described in more detail in 
Technical Note #3.)
    These include collision-avoidance systems to prevent 
crashes as well as integrated emergency management systems to 
improve the timeliness and quality of response to traffic 
crashes. Automated enforcement of red-light running and speed 
infractions can have significant impacts, though great care 
must be taken to ensure that privacy restrictions are 
maintained.
    In addition, geometric improvements have been shown to 
improve safety (e.g., rumble strips, roundabouts), and a number 
of low-cost roadway improvements (sometimes related to 
maintenance) also can have safety improvement impacts.
    The Federal Government has a critical role to play in 
helping set overall traffic safety goals and policies and then 
assisting states and localities with the tools needed to 
achieve these goals. This includes funding, technology research 
and transfer, and the means to measure safety trends and 
improvements.
    The Federal Government also distributes safety improvement 
funding. This can be used to encourage particular safety 
improvements but should not lead to situations where improving 
safety results in reduced safety funding (and the dropping of 
programs). Assistance should be provided to states that need it 
and to states that are progressing with a plan toward their 
goals. Reduced assistance may be necessary for those not 
willing to take basic safety improvement actions.
    There is a large local component to safety improvements in 
the United States. More than 70 percent of the lane-miles in 
the United States are rural, almost 80 percent of these are 
under local control, and more than half of all fatalities occur 
on rural roadways. Any expected significant reduction in 
roadway fatalities in the United States, therefore, will 
require the cooperation and involvement of localities. In many 
cases, however, these jurisdictions have very few staff who 
must complete multiple tasks--safety being just one of them. To 
improve safety at the local level, local agencies need 
assistance at all steps, and they need to work closely and 
cooperatively with their State agency. Streamlining of the 
methods of funding acquisition and spending is also needed.

    Technical Note #3:
    At the University of Minnesota's Intelligent Transportation 
Systems Institute, researchers are working on low-cost systems 
to warn drivers of hazardous situations, such as when it may be 
dangerous to enter onto a rural road due to oncoming traffic. 
In another project, researchers are working with the Mayo 
Clinic to understand how new technologies can provide vital 
health information to emergency rooms, thereby reducing the 
chances of disability or death from traffic accidents.
    Technology can play a variety of additional roles in 
reducing crashes and fatalities. It is common knowledge that 
alcohol is the leading cause of fatalities on our roads. A 
consortium of automotive companies (the Automotive Coalition 
for Traffic Safety) has joined NHTSA to develop in-vehicle 
technology that prevents alcohol-impaired driving.
    Other major high-risk populations may be helped by 
innovative use of technology. Highlighted below are two areas 
in which the Federal Government can play a significant role, 
and for which the benefits are particularly compelling.
    1) Lane Departure. On rural roads, the number-one problem 
is lane departure. Causes are fatigue, distraction, 
daydreaming, and boredom. Technology that allows vehicles to 
``know'' where they are in a lane could warn drivers of 
potential lane departures and significantly mitigate the rate 
of lane-departure fatalities. Lane-departure warning and 
prevention systems can be implemented based on high-accuracy 
differential GPS (DGPS) technology. However, a national network 
of DGPS stations computing local corrections is needed. Without 
these correction signals, the needed vehicle positional 
accuracies (measured in inches) cannot be achieved. Several 
states already have portions of their State covered, but 
without a national network, the automotive companies will not 
deploy the latest GPS technologies. Once a network is 
established, a nation-wide, high-accuracy (again on the order 
of inches) lane-level map will also be needed to capture all 
the lane boundaries on all our rural roads. The states and the 
counties themselves can create such a map fairly inexpensively. 
However, it will take the leadership of the Federal Government 
to see to it that a network of correction stations and a 
national high-accuracy map are deployed and standards are met. 
Once these are in place, we can expect the automotive 
manufacturers to follow through with the needed in-vehicle 
technology.
    2) Teen Drivers. Motor vehicle crashes are the leading 
cause of death among teenagers in the United States. According 
to NHTSA, teen drivers account for 12.9 percent of all fatal 
crashes and 16 percent of all reported crashes even though they 
represent about 4.8 percent of the driving population. 
Furthermore, the economic cost of crashes involving 15-20 year 
old drivers totals 40 billion dollars a year (NHTSA 2006). An 
inexpensive cellular phone based Teen Driving Support System 
(TDSS) has been demonstrated at our Intelligent Transportation 
Systems Institute that can help novice drivers recognize speed 
limits, road curves, and stop signs, and help them model 
appropriate behavior, by providing real-time audio and visual 
feedback. For feedback to teen drivers to be effective, an 
accurate nation-wide data base is needed of the speed limits 
along roads and the locations of the stop signs and other 
critical traffic control devices. Such a system can also notify 
parents of poor driving behavior through real-time automated 
text messaging. (Involving parents in the learning process has 
been shown to facilitate driver skill learning.) Such a system 
could also prevent teens from even knowing about incoming calls 
while driving (and would transfer messages to voicemail), thus 
reducing the potential for driver-distraction-related crashes.
    Many other functions are possible if the device could 
better access the data already carried on the vehicle's data 
bus. The only ``public'' access available today is called the 
On-Board Diagnostics port (ODBII), a standard item on all cars 
manufactured since 1996. However, there is no national standard 
that defines what data should be made available, and many items 
are not accessible even though the signals are already 
``available'' to the vehicle internally. One example of 
information that is not readily accessible is whether the seat 
belt is latched. With this information, one can engage a 
gearshift interlock so that the teen cannot drive away if his 
or her seatbelt is not in place.
    In summary, we need a national standard describing what 
data all automotive companies should provide on their vehicle 
data port and the regulations that enforce such a national 
standard. Inexpensive, after-market, in-vehicle systems such as 
a TDSS can be used to support and enforce graduating driving 
licensure and modify teen driving behavior for the better, 
thereby significantly reducing teen fatalities and serious 
crashes.
    There are no major technical challenges to these two 
examples, simply institutional ones.

    Technical Note #4:
    In the area of safety, the ability to measure the problem 
accurately and completely allows data-driven decisionmaking. 
Relating these measurements to data on roadway design, traffic 
volumes, and other characteristics is also important. Using 
this information on current conditions and using data 
collection systems developed for monitoring those conditions, 
agencies are able to measure the impacts of their safety 
improvement decisions, leading to more efficient and effective 
decisions. Currently, the ability to do this for all roadways 
in a State is limited. Assisting with data collection and 
management is one method of producing better results from 
safety improvements. The flexibility to spend funding at 
different jurisdictional levels and in different State 
agencies, in order to produce the largest impact on fatalities 
and injuries, is also important.
    The Federal Government should help states set aggressive 
goals and work toward meeting them through programs that are 
focused on safety. Documentation of results and where the funds 
are being spent should be watched closely by safety experts. 
Flexibility in shifting funds to where they have the greatest 
impact should be encouraged, even across disciplines--
engineering, education, enforcement, emergency management, and 
data. Data are extremely important and lacking in many states. 
Federal guidance and funding are needed to standardize data 
collection and management. Holding an agency responsible for 
safety improvements without access to the appropriate data is 
problematic.
    The measures used to quantify safety should be flexible 
enough to match State and local capabilities, be based on more 
than just total numbers, use some type of average for multiple 
years, include serious injury crashes as well as fatalities, be 
based on more than a volume-based rate, be split between urban 
and rural roadways, and measure a State against its own 
progress, which is more constructive than measuring comparisons 
between states. Progress toward a goal is a good thing, but it 
should be recognized that as traffic volumes go down (something 
a State or local agency often has little influence over), the 
total number of fatalities and injuries will often go down. It 
should also be recognized that the impact of many safety 
improvement strategies (geometric design, public education, 
etc.) are not well quantified (in a robust manner). There is a 
need to evaluate, with basic and applied research, both 
geometric improvements and behavior-based safety improvements. 
Moreover, there is still a great deal to learn about the 
complex interactions that occur between the driver, vehicle, 
and roadway environment.

    Credits:
    The following people assisted in developing these answers 
and technical notes:
     Keith Knapp, Tom Horan, and Lee Munnich, Center for 
Excellence in Rural Safety, University of Minnesota
     Max Donath and Mike Manser, Intelligent Transportation 
Systems Institute, University of Minnesota
     Susan Groth and Dave Engstrom, Office of Traffic Safety 
and Operations, Minnesota Department of Transportation

    Senator Lautenberg. Thank you.
    Senator Inhofe has other functions to take care of 
immediately, and I would ask him now for his questions.
    Senator Inhofe. Mr. Chairman, thank you for allowing me to 
go ahead of you. I do appreciate it.
    Ms. Martinovich, you heard me talk to, and ask the question 
of Mr. Paniati concerning the proprietary products. I have 
heard, he seemed to believe, if I understood his pretty strong 
response, that there is not a problem, that it is working well 
the way it is, and I outlined the four exceptions that are 
written into the rules.
    I am always interested in what they say from the States. I 
am one of those who doesn't subscribe to the idea that no idea 
is a good idea unless it is developed in Washington. So I would 
like to have you respond to the same question I asked him, how 
is this system working? Do you think the rules as currently 
drafted are discouraging innovation, because the States are not 
able to use patented products? What was your feeling about 
this?
    Ms. Martinovich. Senator Inhofe, thank you.
    I respectfully disagree with Mr. Paniati and FHWA. From the 
States perspective, we would like more flexibility and provide 
opportunity for innovation. We would enjoy working on 
developing some language for that. As an example, building on 
Mr. Paniati's example where, if a feature, the cable rail, say, 
that was built under experimental and it turns out to be OK, so 
you get an additional year, what happens at the end of that 
year? As a State which has a minimal budget and needs a 
stockpile of maintenance parts, then at the end of the year, if 
we can't use that any more, that means I have to expend money 
to go and buy other parts with other systems. Then potentially, 
you have a hodgepodge of systems across the State.
    It is not to preclude anyone. I think if a manufacturer 
sees the opportunity that a State is using something that is 
shown to work that they will rise to the occasion. States also 
do projects on competitive bidding. So that will further allow 
the innovation and to bring the price of items down. Because 
there is only a limited amount of money. So if States have the 
opportunities to use something that works for quality, for 
safety and for innovation, I think then the market will rise to 
the challenge to provide those additional.
    Senator Inhofe. Would you suggest doing that by adding to 
the list of four exceptions, or do you want to rewrite it? What 
would be a good solution to this?
    Ms. Martinovich. I think there is opportunity to add to the 
list of exceptions, to look at things and really make sure that 
they work, it is viable. You don't want to put something out 
there and then not have it work. So you do need to go through a 
certain amount of study and vetting it out. But if it is shown 
to be successful, then allow it to move forward and give the 
States the flexibility.
    Senator Inhofe. What I would like for you to do is come up 
with some language, language that AASHTO in general would agree 
with, not just Nevada or the States, and let us look at this. 
And this is the timing to do it, because we are developing 
ideas now for the reauthorization.
    So why don't you do that, and channel that through our 
office, and we will see what we can do in terms of 
accommodating your concerns.
    Ms. Martinovich. We would be very happy to.
    Senator Inhofe. Mr. Johns, I would like to not ask you the 
same question, but see if you have any comments. Judging from 
your opening statement, I know that you referred to AASHTO a 
couple of times. What do you think about this thing on 
proprietary products?
    Mr. Johns. Senator, I am not familiar with the specifics, 
but generally, I certainly would agree with Ms. Martinovich 
that the States ought to have flexibility to innovative.
    Senator Inhofe. That is something that has concerned me for 
a long time, Mr. Chairman. Maybe when we get some ideas in, we 
can sit down and talk to them, as we get our act together in 
preparation for 2009.
    Thank you very much, Mr. Chairman.
    Senator Lautenberg. Thanks, Senator Inhofe.
    One of the questions that arises is, what is the 
connectivity of----
    Senator Inhofe. Could I ask that you add this into the 
record?
    Senator Lautenberg. Certainly, no objection.
    [The referenced material was not received at time of 
print.]
    Senator Lautenberg. Connectivity, one State to the other. 
In some States, for instance, there is no open can 
restrictions, alcohol included. We are very careful to try to 
arrest the flow of pollution in the air from one State to 
another. Shouldn't we also say that, look, much of our Country 
is dependent on the Federal highway system, but we have also, I 
think, a right and an obligation, we have had several comments, 
and thank you, Ms. Gillan, for remembering that I am, I was the 
author of 21, I was the author of the motorcycle helmet 
requirements, I was the author of limiting truck lengths and 
weights. I don't know whether I am considered the bad boy 
around here or the good guy.
    Ms. Gillan. Senator, you are our hero.
    Senator Lautenberg. You read it just as I wrote it, thank 
you very much.
    [Laughter.]
    Senator Lautenberg. The question is, what do we do about 
the individual challenges? What more can, Mr. Johns, can 
Congress do to get the States to make real improvements in 
safety on our roads? We distribute highway funds through the 
formula and through debate and so forth. But what power should 
we be exercising or how can we exercise it to say, no, you have 
to do certain minimum things based on the performance, based on 
the measurements that we take from year to year about the 
results of deaths, injuries, costs, et cetera? How do we go to 
get the States to cooperate, or rather individuals? You know 
the most glaring example I see is the helmet law. We started 
seeing significant reductions in head and neck injury, and I 
think we were in force about 3 years. And as soon as they took 
it off, the head and neck injury incidence went way up.
    So what can we do here to get the States to make real 
Improvement in safety on our roads?
    Mr. Johns. Mr. Chairman, I will start by offering some 
ideas and maybe other panelists would contribute as well. This 
is a very challenging public policy area. We all know that in 
our Country, there is a strong cultural value of individual 
rights. It is tied to the history of our Country. That value 
causes resistance to some of the measures being taken in 
Europe, for example, on surveillance systems, red light running 
and so on, that have had dramatic impacts on improving their 
safety record.
    It is often a test of what is acceptable politically. I 
encourage the Federal Government to try to require some things 
and try to have incentives. Our State legislature came within 
just a whisker of passing a primary seat belt law this past 
session. The Governor is ready to sign it. It fell apart in the 
final negotiations that really had more to do with the wheeling 
and dealing, dealing with the State deficit.
    But the incentive of additional money from the Federal 
Government was definitely a factor, given the lack of 
transportation funding. So those kinds of programs, incentives, 
requirements from the Federal Government is good. Where they 
don't work, I think then information is very important. Federal 
Government has great power in providing information, best 
practices, peer ratings that sometimes can embarrass States 
into action.
    In the longer term, I think what we are dealing with is 
getting at those values. I think we have seen some change in 
values, particularly in seat belt usage, that has increased 
even without it being required. Smoking is a great example of a 
value change in this Country. That has to do with educating the 
public, involving many, many partners. Our Toward Zero Deaths 
program in Minnesota I think deserves credit not just for their 
technical strategies, but that outreach and involvement, 
publicity, media relations and so on that really try to change 
the public attitude.
    Senator Lautenberg. Thank you. Oddly enough, I am the 
author of no smoking in airplanes, and that changed the tobacco 
culture across the world. Why am I feeling good?
    [Laughter.]
    Senator Lautenberg. Yes, Ms. Gillan.
    Ms. Gillan. Senator Lautenberg, can I just add something? I 
think that the lack of uniformity in State traffic safety laws 
is really hampering our ability to make significant reductions. 
In the next reauthorization, we need to look at sanctions. I 
know that is a dirty word for States. But I will tell you, 
every time Congress has imposed a sanction, whether it was .08, 
zero tolerance for youth BAC, or the 21 drinking age, every 
State complied. Not a single State lost a dollar, and we ended 
up saving lives.
    Now, at the expense of ruining my sister's career in 
Montana, who is a State senator, she has said to me frequently 
when I talk with her about why you don't have a primary 
enforcement seat belt law, she will say to me, show me a 
sanction and I will show you a law. I think that when we pass 
sanctions, we get the laws that we need. It makes no sense that 
you can fly into every single airport in the United States and 
you have to wear a seat belt for takeoff and landing, and yet 
when you drive across the Country, we have this patchwork quilt 
of seat belt laws. So I think the only way we are going to 
achieve this, I agree incentives work, but only if they are in 
combination with a sanction.
    Senator Lautenberg. Thank you.
    Ms. Martinovich, do you want to comment?
    Ms. Martinovich. Thank you, Senator. I would just like to 
add, in support of what has been said, but I would also add a 
national focus. In building with what Mr. Paniati said, I think 
a lot of the fatalities have gone down in the last couple years 
because there has been more of a focus. That just needs to be 
brought to light, more attention on the issue from top down 
helps bring it from the bottom back up.
    Senator Lautenberg. Yes. Not to throw rain on the parade 
that was a reassuring direction, but in terms of still leaving 
well over 40,000 dying on the highways is hardly a level that 
we would like to stay at. And we know that there are things, 
the seat belt question, there is no longer a question. It is 
just either, will you or won't you.
    So I believe that the Federal Government has an obligation 
to protect us, whether it is from terrorists outside our 
Country, whether it is from violence across State borders or 
things of that nature. The fact of the matter is, it is the 
Federal Government's responsibility.
    Unfortunately, we saw in the case of 21 age drinking that 
the incentives never quite carried it. When we said, OK, you 
are going to lose something, then understand it, the longer you 
take the more you lose. And it happened. And as you said, Ms. 
Gillan, and I appreciate, the fact is no State lost any money. 
They all finally conformed. One of the last to conform was 
D.C., the District of Columbia. I guess there must have been a 
thought that we would lose some revenues if the bars closed too 
early and too much attention was paid to drunken behavior.
    But here we are, we look at the number of fatalities that 
occur on the roads, and we see that the ages, the motor vehicle 
crash is the leading cause of death of all Americans between, 
this one is the age of 4 and 34, and every day, 117 people are 
killed on America's highways. About 5,000 in this age group die 
annually from cancer. And we rightfully have fortunes spent on 
finding the cause of cancer. And why aren't the deaths that 
occur on our highways reaching the level of outrage that they 
should?
    Ms. Martinovich, one way, I think, is to make sure that you 
reduce the fatalities and injuries in Nevada travel, high speed 
trains from Los Angeles, California to Las Vegas.
    Thank you all for your participation. We appreciate your 
service. This hearing is ended.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]

          Statement of Hon. Christopher S. Bond, U.S. Senator 
                       from the State of Missouri

    Thank you Chairman Boxer and Ranking Member Inhofe for 
holding this hearing today. This hearing is a great opportunity 
to examine the progress we have made in regards to safety on 
our roads and begin to work to build a new plan to address 
concerns that are consistent with the new safety challenges 
that we face today.
    In addition, thank you to all the witnesses for appearing 
before us today. Your work on this issue is important to 
develop a better understanding of safety on our roads and 
sculpting innovative and effective safety policy that works 
toward our ultimate goal of saving lives.
    In order to create effective safety policy, we must examine 
and understand some of the successes in the past and the 
challenges for the future. In 2005, SAFETEA-LU made significant 
initial steps in the efforts to increase safety on roads across 
America. As a result, we have seen fatality rates on our 
nation's roads steadily decrease since 2005.
    In Missouri , we have been fortunate to see some of these 
same results. Since 2005, fatalities have fallen by over 20 
percent in the last 2 years despite the fact that our vehicle 
miles traveled have continued to increase.
    Despite this success, my major safety concerns remain the 
deterioration of our current infrastructure and the dwindling 
investment in our future infrastructure.
    For decades now the stress on our current infrastructure as 
been on the rise with lane miles not keeping pace with vehicle 
miles traveled. From my State, our highway transportation 
department estimated for the year 2006 that nearly one out of 
three people killed on our highways was a result of inadequate 
infrastructure.
    Currently in Missouri, 28 percent of bridges are considered 
structurally or functionally obsolete, only 60 percent of minor 
roads are considered to be in good shape, and there are too 
many two-lane roads across the State currently carrying the 
traffic capacity typically seen on four-lane roads.
    As a new reauthorization approaches, our best tool to 
increase safety is to invest in our infrastructure. There is 
nothing that saves lives and increases safety on our nation's 
highways like better roads and bridges that can meet this 
nation's growing needs. While it is important to create 
programs and implement safety plans, we will not see the 
significant improvements in safety until we make the necessary 
investment in our infrastructure.
    Undoubtedly, we have seen some progress in regards to 
safety over the last couple years; SAFTEA-LU has gone a long 
way to put our country on the right track. However, our 
transportation infrastructure still faces many safety 
challenges and we need to focus on a plan that relieves the 
stress on our nation's infrastructure.
    Again, I thank the chair, ranking member and the witnesses 
for their hard work. I look forward to hearing your 
perspectives and working together to craft a safety plan that 
will move us forward in saving lives on our nation's highways.

               Statement of Hon. Max Baucus U.S. Senator 
                       from the State of Montana

    ``Men occasionally stumble over the truth, but most of them 
pick themselves up and hurry off as if nothing happened,'' said 
Winston Churchill.
    I don't think Churchill was specifically referring to 
highway fatalities when he said. But he might as well have 
been.
    Mr. Chairman, as you have noted, we suffer more than 40,000 
highway deaths each year. That's a staggering number. Somehow, 
we fail to properly recognize the scope of the loss--probably 
because the individual fatalities occur often at a rate of one 
or two at a time. But the outcome is no less tragic.
    For that reason, Mr. Chairman, I commend you and Chairman 
Boxer for holding this hearing. Highway safety is an issue that 
is too easily overlooked. To paraphrase Churchill, we might 
stumble over this problem, but it's seemingly too easy to 
disregard, as if nothing has happened.
    It is important to recognize that the percentage of highway 
deaths per miles traveled is much lower than it once was. We 
have made real gains in the frequency of drunk driving 
accidents, as I know you are acutely aware, Mr. Chairman, 
because you have been a real leader on that issue. But the 
number of cars on the road has increased tremendously and the 
number of miles traveled has also increased. As a result, the 
number of accidents and fatalities remains stubbornly high.
    Chairman Lautenberg, you provided a number of compelling 
statistics in your statement. I also take special note of your 
declaration that we need to upgrade and repair our 
infrastructure as a means to improving our safety. As I noted 
in a hearing of the Subcommittee on Transportation and 
Infrastructure, as that subcommittee's chairman, approximately 
a third of all highway fatalities are related to shoddy 
infrastructure conditions. Clearly, that description 
encompasses a lot of things from design to construction to 
maintenance to signage, but it reflects a cause-and-effect that 
we can't merely stumble over and then conveniently forget.
    My own State of Montana has an unacceptably high road 
fatality and injury record. Much of Montana is rural and my 
constituents frequently travel long distances across rural 
roads. As I think our witnesses will note, highway accidents 
bearing tragic consequences occur more frequently on rural 
roads than elsewhere. Some of those accidents occur on Federal 
Lands' Highways, sometimes on Indian Reservation Roads.
    I am especially interested in hearing the testimony of 
witnesses such as Mr. Paniati on Federal Highways' insights 
regarding the merits of programs such as the Highway Safety 
Improvement Program. I'm also aware of the Rural Safety 
Initiative that Federal Highways has undertaken.
    Drawing upon technology in all its forms to improve our 
infrastructure and our road safety is something I am interested 
in. Toward this end, Federal Highways' Rural Safety Innovation 
Program is something that interests me.
    I am also interested to hear about efforts in states and in 
other countries that may have proven successful, and from which 
we may be able to learn valuable lessons. Or, maybe certain 
efforts haven't been successful, but we can learn from that, as 
well.
    I think a key question for our witnesses is what else can 
we be doing, or should we be doing, to improve highway safety?
    With that, Mr. Chairman, I thank you for the time, I thank 
our witnesses for joining us today, I thank you and Chairman 
Boxer for holding this hearing, and I look forward to the 
testimony and the discussion.
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
